TOP MANAGEMENT CHALLENGES
     Department of Transportation

     Report Number: PT-2009-005

    Date Issued: November 17, 2008
           U.S. Department of
                                                  Memorandum
           Transportation
           Office of the Secretary
           of Transportation
           Office of Inspector General


Subject:   INFORMATION: DOT’s Fiscal Year 2009                    Date:    November 17, 2008
           Top Management Challenges
           Report Number PT-2009-005
  From:    Calvin L. Scovel III                                Reply to
                                                               Attn. of:   JA-1
           Inspector General
    To:    The Secretary
           Deputy Secretary

           The U.S. transportation system is vital to the Nation’s economy and the quality of
           life for all Americans. Each year, the Department of Transportation (DOT) spends
           about $70 billion on a wide range of efforts to enhance mobility and safety. As
           required by law, we have identified nine top management challenges for the
           Department for fiscal year (FY) 2009.

           The next Administration and the 111th Congress will face an array of challenges
           and difficult decisions with respect to transportation programs. This is particularly
           the case with relieving congestion, reaching agreement on long-term financing
           mechanisms for aviation and surface transportation programs, and addressing
           surface infrastructure, including aging bridges.

           The Department faces these challenges in an environment of uncertain financial
           markets, volatile fuel prices, rising deficits, and a softening economy. These
           factors will impact all modes of transportation and require a careful reassessment
           of how Federal agencies do business and manage investment portfolios.
           Notwithstanding the unprecedented level of uncertainty, there are important
           opportunities to strategically position the Department, set priorities, and adjust
           strategies to maximize investments in transportation.

           Improving transportation safety is—and must remain—the Department’s
           overarching goal. Strong leadership will be a prerequisite for meeting the
           challenges facing the Department. The Department’s top management challenges
           for FY 2009 are summarized below. An exhibit to this report compares this year’s
           management challenges with those published in FY 2008.



                                                     i
 • Enhancing Aviation Safety and Maintaining Confidence in FAA’s Ability To
   Provide Effective Oversight of a Rapidly Changing Industry
 • Enhancing Mobility and Reducing Congestion in America’s Transportation
   System
 • Developing a Plan To Address Projected Highway and Transit Funding
   Shortfalls
 • Maximizing the Return on Current Highway and Transit Infrastructure
   Investments
 • Operating the National Airspace System While Developing and Transitioning
   to the Next Generation Air Transportation System
 • Protecting Against Increasing Cyber Security Risks and Enhancing the
   Protection of Personally Identifiable Information
 • Preventing Catastrophic Failures and Obsolescence in the Nation’s Aging
   Surface Transportation Infrastructure
 • Improving Contract Operations and Maintaining Procurement Integrity
 • Enhancing and Deploying Programs for Reducing the Serious Consequences of
   Surface Transportation Crashes

Key Focus Areas for the New Administration and the 111th Congress
Over the next several years, Congress, the Department, and stakeholders will face
unique challenges. Our report highlights key, near-term areas of emphasis for
each top management challenge. These areas include bolstering the integrity of
the oversight of a rapidly changing airline industry; addressing congestion in the
air and on the ground; and advancing a data-driven, risk-based approach to
addressing nationwide bridge safety risks. We recognize that solution sets involve
policy decisions for the current and future Administration as well as the next
Congress. Our comments are aimed at enhancing safety, reducing risk with
multibillion-dollar investments, and improving Federal oversight of transportation
investments regardless of the chosen policy approach.

We remain committed to a proactive audit and investigative approach to prevent
fraud, waste, and abuse in transportation programs and to our efforts to keep
decision makers informed so that timely corrective actions can be taken. This
report and the Department’s response will be incorporated into the DOT
Performance and Accountability Report as required by law (see appendix).

If you have any questions concerning this report, please contact me at (202)
366-1959. You may also contact David A. Dobbs, Principal Assistant Inspector
General for Auditing and Evaluation, at (202) 366-1427.

                                        #

                                        ii
                                          Table of Contents

1. Enhancing Aviation Safety and Maintaining Confidence in FAA’s Ability To
    Provide Effective Oversight of a Rapidly Changing Industry ...........................1

2. Enhancing Mobility and Reducing Congestion in America’s Transportation
    System ............................................................................................................8

3. Developing a Plan To Address Projected Highway and Transit Funding
    Shortfalls .......................................................................................................14

4. Maximizing the Return on Current Highway and Transit Infrastructure
    Investments ...................................................................................................17

5. Operating the National Airspace System While Developing and Transitioning
    to the Next Generation Air Transportation System ........................................21

6. Protecting Against Increasing Cyber Security Risks and Enhancing the
    Protection of Personally Identifiable Information............................................26

7. Preventing Catastrophic Failures and Obsolescence in the Nation’s Aging
    Surface Transportation Infrastructure ............................................................30

8. Improving Contract Operations and Maintaining Procurement Integrity ........34

9. Enhancing and Deploying Programs for Reducing the Serious Consequences
    of Surface Transportation Crashes................................................................38

Exhibit. Comparison of FY 2009 and FY 2008 Top Management Challenges ...44

Appendix. Department Response ......................................................................45
                                                                                  1


1. Enhancing Aviation Safety and Maintaining Confidence in
   FAA’s Ability To Provide Effective Oversight of a Rapidly
   Changing Industry
Over the last several years, the aviation industry has experienced the safest period
in history. This is due in part to the Federal Aviation Administration’s (FAA)
oversight and the industry’s efforts to advance aviation safety. However, airline
consolidation and downsizing continue to dramatically change the industry, and
widely publicized lapses in FAA oversight in 2008 emphasize the need for FAA to
continually adapt its oversight to further enhance safety. Key challenges for FAA
include:

 • maintaining confidence in FAA’s oversight of air carriers and certification and
   production of new segments of the aircraft industry;
 • following through on longstanding commitments to improve oversight of
   external repair facilities; and
 • improving runway safety by implementing new technologies, making airport-
   specific changes, and reinvigorating FAA initiatives.

Maintaining Confidence in FAA’s Oversight of Air Carriers and Certification
and Production of New Segments of the Aircraft Industry
A significant challenge for FAA will be to maintain confidence in its oversight of
air carrier operations and aircraft certification and production. Our congressional
testimonies in April before the House of Representatives and the Senate disclosed
serious lapses in FAA’s oversight at Southwest Airlines (SWA). We also testified
before the House Subcommittee on Aviation in September on FAA’s certification
of the Eclipse Aviation EA-500 very light jet (VLJ). FAA actions in both of these
instances appeared to focus primarily on promoting aviation over safety, which
diminishes the public perception of FAA’s ability to provide objective oversight.

The importance of these issues was underscored by the Department’s recent
actions to review FAA’s safety oversight. In response to the safety lapses at
SWA, on May 1, 2008, the Secretary of Transportation commissioned a panel to
examine FAA’s safety culture and its approach to safety management. In its final
report, issued in September, the panel disclosed that it found FAA’s safety staff
was “unambiguously committed” to its safety mission but acknowledged that a
remarkable degree of variation in regulatory philosophies exists among inspectors,
which could create widespread inconsistencies in regulatory decision making.

Enhancing Oversight of Air Carrier Operations: In April and June, we
reported that an FAA safety inspector had an overly collaborative relationship
with SWA and violated FAA safety directives by permitting the air carrier to
operate 46 planes without required inspections for fuselage cracks. Although FAA
                                                                                  2


identified the situation as early as April 2007, it did not attempt to determine the
root cause of the safety issue nor initiate enforcement action against the carrier
until November 2007. This review also identified concerns regarding FAA’s
failure to protect whistleblowers from retaliation. For example, after a
whistleblower voiced concerns about SWA to FAA, an anonymous hotline
complaint—which was never substantiated—was lodged against him, and FAA
removed the whistleblower from duty for 5 months while he was under
investigation. In 2007, we raised similar concerns regarding maintenance
practices at Northwest Airlines, where FAA reviews of an inspector’s safety
concerns overlooked key findings identified by other inspectors.

Our work at SWA and other carriers has also found weaknesses in FAA’s national
program for risk-based oversight, the Air Transportation Oversight System
(ATOS). At SWA, multiple missed ATOS inspections allowed safety directive
compliance issues in SWA’s maintenance program to go undetected for several
years. At the time of the SWA disclosure, FAA inspectors had not completed
21 key inspections in at least 5 years.

Over the past 6 years, we have identified system-wide problems with ATOS, such
as inconsistent inspection methods across FAA field offices and incomplete
inspections. We recommended, among other things, that FAA strengthen its
national oversight and accountability to ensure consistent and timely ATOS
inspections. However, FAA still has not fully addressed this concern. We have
recommended other actions to help maintain public confidence in FAA’s oversight
of air carriers. FAA has agreed to some of these, such as creating a national
review team to conduct quality assurance reviews of FAA’s air carrier oversight
and implementing a process to monitor field office ATOS inspections. However,
FAA has disagreed with other key recommendations, including the following:

• Periodically rotating supervisory inspectors to ensure reliable and objective air
  carrier oversight. FAA has stated that it is not financially feasible to rotate
  inspectors annually. Given budget constraints, FAA should consider other
  alternatives to ensure objective oversight. Possible alternatives include
  (1) incorporating assessments into its air carrier evaluation program to determine
  if an overly collaborative relationship exists between inspectors and the air
  carriers they oversee and (2) modifying its inspector training program to include
  additional sensitivity and integrity training for air carrier relations.

• Establishing an independent organization to investigate safety issues identified
  by FAA employees. FAA states that it has already deployed a new internal
  hotline for employees to resolve safety issues without fear of repercussion.
  However, we question the effectiveness of the hotline, which remains under the
  control of the Aviation Safety line of business. The serious weaknesses we
  identified underscore the need for an independent organization. In fact, FAA has
                                                                                    3


 an independent organization to investigate employee complaints about its Air
 Traffic Organization. This group is staffed with former controllers and other
 technical experts. It recently worked with our office to conduct a high-profile
 investigation at the Dallas/Fort-Worth Terminal Radar Approach Control
 facility. The investigation substantiated serious whistleblower allegations that
 facility management underreported controller operational errors (when a
 controller fails to maintain separation between two aircraft), which created, at a
 minimum, the appearance of complicity.

Improving Certification and Production Oversight of New Segments of the
Aircraft Industry: Another challenge for FAA will be improving its oversight of
new segments of the aircraft industry. Introduction of VLJs into the National
Airspace System is a key change occurring in the industry and is expected to
continue over the next 2 decades. VLJs are small aircraft with advanced
technologies that cost less than other business jets. In 2006, FAA certified the first
VLJs, including the Eclipse EA-500. While the industry was generally excited
about the introduction of this jet, some FAA employees were also concerned that it
was pushed through the certification process too quickly.

A significant issue overshadowing FAA’s certification of the EA-500 was the
inherent risks associated with a new aircraft utilizing new technology, produced by
a new manufacturer, and marketed with a new business model for its use. Because
of these factors, FAA should have exercised heightened scrutiny in certifying the
aircraft. Instead, our investigation found a combination of FAA actions or
inactions indicating that the Agency expedited the certification processes for the
EA-500 to meet a September 2006 deadline.

More importantly, because the EA-500 has advanced avionics and turbine engine
technology typical of large transport aircraft combined with the light weight of
smaller, private aircraft, it did not easily fit into FAA’s existing certification
framework. FAA chose to certify the EA-500 and other VLJs using certification
requirements for general aviation aircraft rather than the more stringent
certification requirements for larger transport aircraft.

A September 2008 Special Certification Review conducted by an independent
FAA team concluded that the aircraft met applicable certification requirements for
the four areas reviewed. However, FAA managers acknowledged that the general
aviation certification requirements were inadequate to address the advanced
concepts introduced on the aircraft. We understand that FAA is developing a
Notice of Proposed Rulemaking (NPRM) to clarify certification requirements for
VLJs. Given the issues surrounding the EA-500 certification, FAA should
expedite the NPRM to allay future concerns with this expanding industry segment.
                                                                                       4


Following Through on Longstanding Commitments To Improve Oversight
of External Repair Facilities
FAA continues to face challenges in identifying where critical aircraft
maintenance is performed. A key issue is that FAA’s risk-based oversight system
does not include critical repairs performed by non-certificated repair facilities.
FAA set up a system in fiscal year (FY) 2007 for air carriers and repair stations to
report the volume of outsourced repairs. However, in our September 2008 report,
we found that FAA’s system was inadequate because it did not require mandatory
air carrier reporting, an inclusive air carrier listing of all repair stations performing
repairs to critical components, or FAA inspector validation.

We also raised concerns with FAA’s guidance planned for issuance by the end of
calendar year 2008. We found that the guidance, as currently drafted, does not
require air carriers to report volume data for all repairs of critical components and
inspectors to validate the data. Without this information, FAA cannot be assured
that it has the precise and timely information needed to determine where it should
focus its inspections. FAA is revising the guidance to address these issues.

Gathering adequate data to target inspections is important since FAA does not
have a specific policy governing when inspectors should initially visit repair
stations performing substantial maintenance for air carriers. Instead, FAA allows
inspectors to rely on the air carriers’ initial audits as a basis for approving those
facilities for air carrier use. As a result, we found significant delays between
FAA’s initial approval of repair stations and its first inspections at those locations.
For example, during a 3-year period, FAA inspectors inspected only 4 of its
15 substantial maintenance providers used by 1 air carrier. Among those
uninspected was a major foreign engine repair facility that FAA inspectors did not
visit until 5 years after it had received approval for carrier use—even though it had
worked on 39 of the 53 engines repaired for the air carrier.

FAA needs to require its inspectors to conduct initial and follow-up on-site
inspections of substantial maintenance providers to assess whether the
maintenance providers comply with air carriers’ procedures. In addition to their
own inspections, FAA inspectors must ensure that air carriers and repair stations
have strong audit systems to correct identified deficiencies, as FAA relies heavily
on air carriers’ oversight. In response to our report, FAA is reviewing its
procedures and processes for opportunities to strengthen its guidance. However, it
does not expect to complete these reviews until mid-2009.

Improving Runway Safety by Implementing New Technologies, Making
Airport-Specific Changes, and Reinvigorating FAA Initiatives
Runway incidents continue to be a substantial threat to safety. The last fatal
commercial aircraft accident in the United States (in 2006) occurred because the
pilots of Comair flight 5191 attempted to take off from the wrong runway. A
                                                                                                                      5


specific concern is runway incursions (any incident involving an unauthorized
aircraft, vehicle, or person on a runway). 1 Since 2003, the number of runway
incursions has increased again, reaching a high of 370 in FY 2007—a 13-percent
increase over FY 2004 (see figure 1-1). Under FAA’s new definition for
categorizing runway incursions, runway incursions continue to rise even more
dramatically—a 39-percent increase since FY 2004 (see figure 1-2).

               Figure 1-1. Runway Incursions,                             Figure 1-2. Runway Incursions,
           Originial Definition, FY 1999 to FY 2007                      New Definition, FY 2004 to FY 2008


                                                                  FY 2004                         730
     FY 1999                              329
                                                 405
                                                                  FY 2005                          779
     FY 2001                                     407
                                           339
     FY 2003                              323                     FY 2006                              816
                                          326
     FY 2005                              327                     FY 2007                               891
                                          330
     FY 2007                                     370              FY 2008                                    1,012*
                0   100     200     300     400        500
                                                                                 0   250   500   750    1,000 1,250
                                                                So urce: FA A
    So urce: FA A
                                                                * P reliminary



Many see new technology as a key runway safety solution. However, our reviews
of three major FAA acquisitions 2 for improving runway safety disclosed serious
concerns about what can be effectively deployed within the next several years.
For example, for the Airport Surface Detection Equipment-Model X—a ground
surveillance system intended to alert controllers to potential ground collisions—
FAA may not meet its goal to commission all 35 systems by 2011 or achieve all
planned safety benefits.

The uncertain timeline and emerging risks of FAA’s runway safety technologies
underscore the need for other near-term solutions. In May 2007, we reported on
runway safety efforts at four airports that had experienced a surge in runway
incursions: Boston, Chicago, Philadelphia, and Los Angeles. All four airports had
made relatively low-cost, simple changes to their infrastructure and procedures
that helped reduce the risk of runway incursions at their locations. These included
improving airport lighting, signage, and runway and taxiway markings (before
FAA’s June 2008 deadline). In addition, the airport operators and FAA managers
began tightly controlling the testing and certification of airfield drivers.


1
    Effective October 1, 2007, FAA began categorizing runway incursions using the International Civil Aviation
    Organization (ICAO) definition. The new definition of runway incursions includes incidents that were previously
    defined by FAA as “surface incidents” (where a potential conflict did not exist).
2
    Airport Surface Detection Equipment-Model X (ASDE-X), Automatic Dependent Surveillance-Broadcast (ADS-B),
    and Runway Status Lights.
                                                                                   6


FAA convened a task force in August 2007 to address runway safety issues. The
group agreed on a short-term plan to improve runway safety, which includes
conducting safety reviews at airports based on runway incursion and wrong
runway departure data, improving airport signage and markings at the 75 busiest,
medium- to large-sized airports, and reviewing cockpit and air traffic clearance
procedures. These are the type of “airport-specific” actions that are needed; the
key now will be maintaining commitment and follow through on the part of all
users.

FAA must also remain focused on reinvigorating national runway safety
initiatives. In response to the surge in runway incursions between FY 1999 and
FY 2001, FAA took national actions to prioritize runway safety, which
significantly decreased incidents between 2001 and 2003 (from 407 to 323).
However, some national initiatives for promoting runway safety have
subsequently waned as FAA met its overall goals for reducing runway incursions.

For example, FAA established the Runway Safety Office in 2001 to provide
central oversight and accountability for runway safety initiatives throughout the
Agency. However, at the time of our review, that office had not had a permanent
director for almost 3 years and had undergone significant reorganization and staff
reductions. FAA has since hired a director for this office and plans to reinstate its
National Plan for Runway Safety to reduce runway incursions. Sustained
commitment and executive-level attention will be key to the success of these
initiatives.

Near-Term Focus Areas for the Transition to a New Administration
Aviation safety is and must remain FAA’s top priority. Key focus areas for the
short term include the following actions.

 • Bolster the integrity of FAA’s airline oversight by protecting whistleblowers,
   improving risk-based systems for targeting inspector resources, and
   establishing mechanisms at the national level to provide quality assurance and
   independent assessments of regional inspection efforts.
 • Strengthen the certification process for new VLJs by clarifying certification
   requirements.
 • Advance risk-based oversight of outsourced maintenance providers (both
   foreign and domestic) by developing and implementing a system for
   determining how much and where aircraft maintenance is performed.
 • Reinvigorate efforts with strong national leadership to enhance runway safety
   through revised procedures and airport-specific changes at high-risk locations
   while waiting for new technologies to be deployed.
                                                                             7


For further information regarding the issues identified in this chapter, please
contact Lou Dixon, Assistant Inspector General for Aviation and Special
Programs, at (202)-366-0500. The following related reports and testimonies can
also be found on the OIG website at http://www.oig.dot.gov.
 • Review of FAA’s Oversight of Airlines and Use of Regulatory Partnership
   Programs
 • Testimony before the House Subcommittee on Aviation: FAA’s Certification of
   the Eclipse EA–500 Very Light Jet
 • FAA’s Actions Taken To Address Allegations of Unsafe Maintenance Practices
   at Northwest Airlines
 • Assessment of FAA’s Risk-Based System for Overseeing Aircraft
   Manufacturers’ Suppliers
 • Review of Air Carriers’ Use of Non-Certificated Repair Stations
 • Progress Has Been Made in Reducing Runway Incursions, but Recent
   Incidents Underscore the Need for Further Proactive Efforts
 • Air Carriers Outsourcing of Aircraft Maintenance
                                                                                        8


2. Enhancing Mobility and Reducing Congestion in America’s
   Transportation System
 Congestion-related problems have impacted all modes of transportation; the
 Department estimates that congestion costs America almost $200 billion per year.
 Flight delays and cancellations have continued to be a concern in 2008, and the
 Nation’s highways continue to experience record levels of congestion. The
 Department has made progress in implementing several congestion-related
 initiatives this past year, and it is imperative that these remain a key Federal
 priority across all modes. For example, the Secretary recently released a reform
 plan that proposes a renewed Federal focus on maintaining and improving
 performance on the Interstate Highway System, addressing urban congestion,
 giving state and local leaders greater flexibility to invest in their transit and
 highway priorities, and creating accountability measures to ensure investments in
 transportation will actually deliver results.

 The Department has also taken steps to ease aviation congestion by reducing
 flights in the New York City area and establishing new routes through airspace
 redesign and air traffic control procedures. The Department is also building new
 runways nationwide. However, while the Department decides where to invest
 Federal funds to operate and expand the air traffic control system, state and local
 authorities select most highway and transit projects for funding. Therefore, the
 Department will need to work with these stakeholders to target Federal
 infrastructure funding to congestion relief. Specific challenges in reducing
 congestion include:

  • reducing delays and improving airline customer service as the airlines struggle
    with higher fuel costs,
  • keeping airport infrastructure and airspace projects on track, and
  • improving intercity passenger rail’s efficiency and viability as a transportation
    alternative.

 Reducing Delays and Improving Airline Customer Service as the Airlines
 Struggle With Higher Fuel Costs
 Reducing delays, particularly at already congested airports, and improving airline
 customer service are important issues facing the Nation. Peak-year 2007 trends
 continued into the first 6 months of 2008, with more than 1 in 4 flights
 (29 percent) delayed or cancelled. Not until July and August did on-time
 performance show a substantial improvement compared to the same months last
 year. On the basis of the summer improvements, year-to-date delays (through
 August of 2008) at the 55 airports tracked by the Federal Aviation Administration
 (FAA) declined 7.3 percent from the same period in 2008. During the summer of
 2008, double-digit reductions in delays were experienced at 45 of the 55 airports.
                                                                                                                  9


Notable exceptions were Newark, where delays were up slightly; LaGuardia;
John F. Kennedy (JFK); and Chicago O’Hare, where delays were down only
5.3 percent, 4.9 percent and 4.5 percent, respectively.

The decline in delays primarily stems from higher fuel costs and is expected to
continue through the remainder of the year. Specifically, to offset rising fuel
costs, airlines have reduced flight schedules and taken aircraft out of service, and
this has provided some relief from delays. In our view, however, reducing
capacity and increasing load factors can also result in more passenger
inconvenience and dissatisfaction with customer service. With more seats filled,
air carriers have fewer options to accommodate passengers from cancelled flights
or missed connections caused by flight delays.

To explore solutions to congestion and delays in the New York City area, the
Secretary formed the New York Aviation Rulemaking Committee last September.
The Secretary also directed FAA to negotiate with the airlines and established
temporary flight caps at JFK and Newark airports and proposed auctioning a
limited number of take-off and landing opportunities (known as “slots”) at JFK,
LaGuardia, and Newark airports. While limiting the number of flights may reduce
congestion in the short term, it is not an ideal long-term solution.

The current situation provides the Department with an important opportunity to
revise its demand management policies, which are very controversial issues. Slot
auctions in particular are strongly opposed by stakeholders, including the airlines
and the operator of the New York area airports. Moreover, the Government
Accountability Office recently concluded that FAA does not have the authority to
auction arrival and departure slots. 3 The Government Accountability Office also
stated that if FAA auctions slots without obtaining the necessary authority and
retains and uses the proceeds, it would be in violation of the Anti-Deficiency Act.
The Justice Department disagreed and found no potential for violation of the Anti-
Deficiency Act. FAA issued its final rules to auction slots at the three New York
airports, which will go into affect in January 2009. We believe the Department
needs to further study the pros and cons of each demand management option,
including who benefits and who bears the cost of implementing each option.

To improve airline customer service, the Department should continue moving
forward with initiatives to improve the accountability, enforcement, and protection
afforded air travelers. These initiatives include developing rulemakings to
enhance passenger protection and implementing the necessary changes in the
airlines’ on-time performance reporting to capture all long, on-board delays and


3
    See GAO letter to Congressional Requestors, Federal Aviation Administration—Authority to Auction Airport Arrival
    and Departure Slots and to Retain and Use Auction Proceeds (September 30, 2008, B-316796).
                                                                                        10


plans to develop model contingency plans for minimizing the impact of long, on-
board delays.

Keeping Airport Infrastructure and Airspace Projects On Track
The long-term solution to increasing capacity and reducing delays depends largely
on expanding capacity through the Next Generation Air Transportation System
(NextGen). However, NextGen is not targeted until the 2025 timeframe. While
there is no “silver bullet” for addressing delays, several near-term initiatives can
help relieve congestion. According to FAA, building new runways provides the
largest increases in capacity. Currently, there are eight runway projects underway
at seven major airports, which are expected to be complete by 2012. FAA
estimates that runway projects at Washington-Dulles, Chicago O’Hare, and Seattle
have the potential to accommodate an additional 300,000 operations annually.
Table 2-1 provides details on the eight runway projects.
                    Table 2-1. Current Airfield Construction Projects
                          Airfield Construction
       Airports                  Projects           Est. Completion     Cost Estimate
 Philadelphia          Runway Extension           March 2009          $65 million
 Seattle-Tacoma        Runway                     November 2008       $1.1 billion
 Washington-Dulles Runway                         November 2008       $356 million
                       Runway (9L/27R)            November 2008
 Chicago O’Hare                                                       $1.7 billion
                       Runway (10C/28C)           2012
 Charlotte             Runway                     February 2010       $300 million
 Dallas Ft. Worth      End Around Taxiway         December 2008       $79 million
 Boston                Centerfield Taxiway        November 2009       $55 million

Airspace redesign efforts are critical to realizing the full benefits of runways and
can also enhance capacity without new infrastructure. Currently, FAA is pursuing
seven airspace redesign projects nationwide, including a major but controversial
effort to revamp airspace in the New York/New Jersey/Philadelphia area.
However, FAA’s airspace redesign efforts still do not function as a “national”
program since FAA facilities are now using their own resources to redesign
airspace without coordinating with Headquarters. FAA needs to complete
guidelines for managing airspace projects across the Agency’s lines of business
and establish realistic funding profiles for airspace projects.

Another important near-term initiative is establishing new routes that rely on
equipment onboard aircraft. These new routes rely on procedures (called Area
Navigation/Required Navigation Performance) that allow aircraft to fly more
precise routes, which reduces fuel burn. At this stage, the challenge facing FAA is
shifting from localized operations to networking city pairs, like Washington, DC,
                                                                                   11


and Chicago, IL, which will require considerable simulation modeling as well as
close coordination with airspace redesign efforts and stakeholders.

Improving Intercity Passenger Rail’s Efficiency and Viability as a
Transportation Alternative
Intercity passenger rail is an integral part of America’s transportation system,
particularly in light of growing highway and aviation congestion and rising fuel
prices. Amtrak, the Nation’s intercity passenger rail service provider, is
experiencing record revenue and ridership. However, given the constrained
Federal funding environment and Amtrak’s poor on-time performance, Amtrak’s
ability to continue to grow and reduce congestion remains uncertain.

While Amtrak has recently made moderate improvement in its financial
performance, its operational reform efforts have waned. Amtrak achieved
$61 million in reform savings in fiscal year (FY) 2006 and $53 million in
FY 2007, but it only budgeted $32 million in savings for FY 2008. As limited
Federal funds are allocated to operating subsidies, it becomes more difficult to
provide sufficient capital funds to improve Amtrak’s performance and prepare for
its long-term expansion plans. The Department needs to ensure that Amtrak
continues its efforts to implement strategic reform initiatives that reduce its
reliance on Federal subsidies.

Amtrak’s poor on-time performance undermines the viability of intercity
passenger rail as an option for travelers and weakens Amtrak’s financial position
by reducing its revenues and increasing its operating costs. Between FY 2003 and
FY 2007, Amtrak’s on-time performance off the Northeast Corridor (NEC) for
long-distance routes fell from an average of only 51 percent to 42 percent; for non-
NEC corridor routes, on-time performance fell from an average of 76 percent to
66 percent.

We recently reported that there are several root causes of Amtrak train delays that,
if addressed, would improve Amtrak’s on-time performance and financial
viability. Specifically, Amtrak trains are delayed by (1) freight railroad
dispatching practices, some of which deny Amtrak trains their statutory right to
preference in the use of freight rail tracks and infrastructure; (2) track maintenance
practices by the freight railroads and the resulting track speed restrictions;
(3) insufficient track capacity; and (4) external factors beyond the freight
railroad’s control, such as weather.

Achieving reliable on-time performance would substantially improve Amtrak’s
finances. For example, an 85-percent on-time performance off the NEC in FY
2006 would have reduced Amtrak’s operating loss by 30 percent, or by
$136.6 million (see figure 2-1 below).
                                                                                               12


   Figure 2-1. Calculation of Net Effects at 85 Percent On-Time Performance


                         Additional Revenues
                            $111.4 million



                                                                Cost Savings
                                                                $39.3 million


                     NET GAINS                                          Net Perform.
                    $136.6 million                                       Payments
                                                                          ($14.1)
                                                                          million




Numbers may not add up             $50 million   $100 million                   $150 million
due to rounding.

Source: OIG analysis

The Department needs to work with the freight railroads (over whose track
Amtrak travels) and Amtrak to develop and implement comprehensive route
management plans to improve service reliability on poor-performing Amtrak
routes and seek additional funding for rail capacity expansion. The Department
must also work with states that are making their own capital investments in freight
rail capacity to improve the linkage between those investments and freight
railroads’ commitment to enhancing Amtrak train on-time performance.

Near-Term Focus Areas for the Transition to a New Administration
Given the importance of transportation to the Nation’s economy and the impact of
congestion, several efforts will be needed to:

   • keep short-term FAA capacity initiatives on track, including new runways and
     airspace redesign efforts, and
   • move forward with initiatives to improve the accountability, enforcement, and
     protection afforded air travelers.
                                                                            13


For further information regarding the issues identified in this chapter, please
contact David Tornquist, Assistant Inspector General for Rail and Maritime
Program Audits and Economic Analysis, at (202)-366-9970. The following
related reports and testimonies can also be found on the OIG website at
http://www.oig.dot.gov.
 • FAA Short-Term Capacity Initiatives
 • Use of the National Airspace System
 • Aviation Industry Performance
 • Quarterly Reports on Amtrak’s FY 2008 Operational Reforms Savings and
   Financial Performance
 • Analysis of the Benefits of High–Speed Rail on the Northeast Corridor
 • Amtrak’s Future Outlook and Budgetary Needs
 • Root Causes of Amtrak Train Delays
 • Effects of Amtrak’s Poor On–Time Performance
 • Follow-Up Review: Performance of U.S. Airlines in Implementing Selected
   Provisions of the Airline Customer Service Commitment
 • Actions Needed To Improve Airline Customer Service and Minimize Long, On-
   Board Delays
 • Status Report on Actions Underway To Address Flight Delays and Improve
   Airline Customer Service
                                                                                   14


3. Developing a Plan To Address Projected Highway and Transit
   Funding Shortfalls
 The Department faces significant challenges regarding funding for Federal
 highway and transit programs. In the near term, the Department must take steps to
 prevent recurrence of this summer’s Highway Trust Fund (HTF) cash flow crisis.
 In the long term, it must work with Congress to enact a comprehensive funding
 framework that addresses revenue shortfalls in the HTF that may reduce future
 Federal highway spending. In addition, the Department needs to continue
 developing and encouraging innovative funding solutions for surface
 transportation infrastructure. The current surface reauthorization expires at the
 end of fiscal year (FY) 2009. The specific challenges the Department faces
 regarding highway and transit funding include:

  • ensuring the highway trust fund remains solvent and
  • developing a comprehensive highway funding framework for the future.

 Ensuring the Highway Trust Fund Remains Solvent
 To its credit, the Department recognized the urgency of a cash flow crisis in the
 HTF in August and requested Congress to approve legislation that would transfer
 $8 billion from the General Fund to the HTF. While the Department successfully
 managed HTF cash flow to minimize negative impacts on state departments of
 transportation, pending transfer of the $8 billion from the General Fund, it is
 uncertain how long this infusion of funds will last. The Department’s ability to
 pay bills submitted by states for authorized costs incurred depends on the amount
 of funds in the HTF. That balance largely depends on Federal motor fuel excise
 tax receipts, which have been declining steadily in response to the unprecedented
 increases in fuel prices. Essentially, as fuel prices increase, motorists are cutting
 back on their driving, purchasing more fuel-efficient vehicles, and buying less
 gasoline, thereby generating fewer receipts for the HTF (see figure 3-1 below).
                                                                                                                                             15



                                       Figure 3-1. Highway Trust Fund – Highway Account Balance
                                                          (FY 2005 – FY 2008)

                                                   $9.1 Billion closing balance after $8.0 Billion
                                 50                      transfer from the General Fund                                     12


                                                                                                                            10
HTF Revenues and Disbursements




                                 40




                                                                                                                                 Trust Fund Balance
                                                                                                                            8
                                 30




                                                                                                                                     ($ Billions)
          ($ Billions)




                                                                                                                            6

                                 20
                                                                                                                            4

                                 10
                                                                                                                            2


                                  0                                                                                         0
                                           2005                  2006                     2007         2008 (prelim.)            $1.1
                                                                                                                                Billion
                                       Revenues                    Disbursements                      Trust Fund Balance
                                       Projected Revenues          Projected Disbursements            Trust Fund Balance
                                                                                                     (w/o $8.0 Bil. transfer)

                         Source: FHWA for actual Trust Fund revenues and disbursements and the President’s Budget for projected
                                 revenues and disbursements.

                                 Compounding the Department’s near-term challenge is the fact that it does not
                                 directly control the rate at which funds are drawn from the HTF. Instead, the pace
                                 of state highway construction drives when states submit bills to the Department to
                                 be paid from the HTF. While the Department has taken steps to better manage the
                                 cash in the HTF, the potential exists for a recurrence of this summer’s HTF
                                 insolvency crisis before a long-term solution can be reached. Therefore, the
                                 Department needs to maintain its focus on the HTF cash flow.

                                 Developing a Comprehensive Highway Funding Framework for the Future
                                 The current highway authorization expires at the end of FY 2009. The
                                 Department has issued a proposal to reform how surface transportation decisions
                                 and investments are made. However, it has yet to propose a level of highway
                                 funding for the reauthorization or a means for supporting that level of funding.

                                 Historically, surface transportation funding has increased in successive
                                 reauthorizations:
                                                                                                              16


    • $155 billion authorized in the Intermodal Surface Transportation Efficiency
      Act 4 (ISTEA).
    • $218 billion authorized in the Transportation Equity Act for the 21st Century 5
      (TEA-21)—a 41 percent increase.
    • $286 billion authorized in the Safe, Accountable, Flexible, Efficient
      Transportation Equity Act: A Legacy for Users 6 (SAFETEA-LU)—a
      31 percent increase.

Surface transportation funding levels are generally determined by projected
receipts into the HTF. The projections of HTF receipts for the upcoming surface
reauthorization time period are unlikely to support current funding levels, let alone
increased funding levels. The growth in highway construction and maintenance
costs, which we reported on last year, and the growing demand for higher levels of
surface infrastructure investment raise significant questions regarding the
adequacy of a funding structure that heavily relies on the 18.4 cents per gallon
Federal gasoline tax. The Department must help develop a consensus among the
various stakeholders and Congress on what an appropriate level of Federal surface
infrastructure investment should be and how that investment should be financed.

Alternative or supplemental funding mechanisms that might be considered include
increasing the current fuel tax or imposing fees on vehicle miles traveled, vehicle
registration or sales, new tolls, or customs duties. Each revenue source would
have a significant impact on highway users and the economy, which the
Department would need to consider carefully.

Near-Term Focus Area for the Transition to a New Administration
There is a sense of urgency facing the Department because the current surface
transportation reauthorization expires at the end of this fiscal year. The
Department needs to monitor the solvency of the Highway Trust Fund until a
long-term financing solution can be implemented.

For further information regarding the issues identified in this chapter, please
contact David Tornquist, Assistant Inspector General for Rail and Maritime
Program Audits and Economic Analysis, at (202)-366-9970. The following
related report can also be found on the OIG website at http://www.oig.dot.gov.

Growth in Highway Construction and Maintenance Costs


4
    The Intermodal Surface Transportation Efficiency Act (ISTEA), Pub. L. No. 102-240 (1991). This law expired in
    1997 and was followed by TEA-21 and SAFETEA-LU.
5
    The Transportation Equity Act for the 21st Century (TEA-21), Pub. L. No. 105-178 (1998).
6
    Safe, Accountable, Flexible, Efficient Transportation Equity Act: A Legacy for Users (SAFETEA-LU), Pub. L. No.
    109-59 (2005). This law expires September 30, 2009.
                                                                                     17


4. Maximizing the Return on Current Highway and Transit
   Infrastructure Investments
 As infrastructure needs are increasing faster than funding resources, the
 Department must maximize the return on its current Federal surface transportation
 investments. This is a critical priority because the Highway Trust Fund (HTF),
 which provides most of the funding for highway and transit projects, is facing
 insolvency earlier than expected. At the same time, the Nation’s roadways are
 already heavily congested and demand for public transportation is growing. The
 Federal Highway Administration’s (FHWA) and the Federal Transit
 Administration’s (FTA) early and continuous oversight of states’ project and
 financial management practices are key to controlling costs and schedules;
 avoiding construction quality problems; and preventing and detecting fraud, waste,
 and abuse. Considering the current tight fiscal environment at all levels of
 government, the Department needs to focus on:

  • strengthening stewardship over the Federal Government’s highway investment,
  • providing strong oversight of major transit projects to maximize limited
    funding, and
  • ensuring continued vigilance in protecting federally funded surface
    transportation projects from fraud.

 Strengthening Stewardship Over the Federal Government’s Highway
 Investment
 To maximize the return on Federal highway funding provided to states (over
 $41 billion in fiscal year [FY] 2008), FHWA must continue to provide strong
 stewardship of major highway projects. To its credit, FHWA has enhanced its
 oversight of major projects and states’ management practices in recent years, but
 sustained focus is needed to ensure that these efforts attain their goals. This task is
 even more imperative since HTF revenues are falling short of meeting an
 overwhelming demand for highway infrastructure funding.

 In the past, we have reported on major oversight deficiencies on highway projects,
 such as Boston’s Central Artery/Tunnel Project. For example, over the years, the
 finance plans for this project did not comply with FHWA guidance and
 significantly understated project costs. Moreover, our work on the Central
 Artery/Tunnel Project’s Stem to Stern Safety Review, which was prompted by a
 tunnel ceiling collapse that killed a motorist, showed that major problems in
 construction quality may have been prevented with greater oversight at the Federal
 and state levels. We have learned lessons from this troubled, high-profile project.
                                                                                                                 18


To strengthen oversight of highway funds, Congress made several important
changes in the Safe, Accountable, Flexible, Efficient Transportation Equity Act: A
Legacy for Users. 7

    • One major change involved lowering the definition of major projects from
      $1 billion to $500 million. As a result, FHWA must provide enhanced
      oversight to projects now defined as major projects, including a review of the
      required finance plan. A finance plan is an important oversight tool that
      provides managers and the public with information on how much a project is
      expected to cost, when it will be completed, whether adequate funding is
      committed, and whether there are risks to completing the project on time and
      within budget.

    • Another major change involved adding a requirement for major highway
      projects to have project management plans as well as finance plans. Project
      management plans serve as a “roadmap” to help the project team deliver a
      project in an efficient and effective manner by clearly defining roles,
      responsibilities, processes, and activities.

FHWA needs to strengthen the use of these tools and remain vigilant in its
oversight of major highway projects.

Providing Strong Oversight of Major Projects To Maximize Limited Transit
Funding
FTA has 15 New Starts projects with approved full funding grant agreements
totaling $9.2 billion 8 in various stages of design or construction across the country
that are seeking Federal funding in the FY 2009 New Starts report. FTA selects
relatively few projects for New Starts each year. However, demand for New
Starts funding is high and will likely continue to grow if the recent surge in transit
ridership continues. FTA must ensure that its New Starts evaluation process
selects the most promising projects. Accordingly, FTA must maintain a rigorous
evaluation process, with particular emphasis in two key areas:

    • First, FTA must ensure that the capital cost estimate for each proposed project
      is credible and complete; this is a key element in determining whether a project
      is cost effective. For example, after assessing cost estimates for the Dulles
      Corridor Metrorail Project, which had been in the New Start pipeline for years,
      two independent consultants for FTA determined that the project sponsor

7
    Safe, Accountable, Flexible, Efficient Transportation Equity Act: A Legacy for Users (SAFETEA-LU), Pub. L. No.
    109-59 (2005). This law expires September 30, 2009.
8
    FTA, “Annual Report on Funding Recommendations: Proposed Allocations of Funds for Fiscal Year 2009,”
    February 2008. FTA also had 16 New Starts projects that are in the preliminary engineering or final design stages
    (with total requested Federal funding of $9 billion).
                                                                                                                   19


      underestimated schedule delays; these delays increased the overall cost
      estimate to almost $3 billion—doubling an earlier estimate. Earlier scrutiny of
      cost estimates might have helped FTA avoid this situation.

      To its credit, FTA is now requiring its project management oversight
      contractors to review cost estimates earlier in the New Starts process. FTA has
      also implemented a program establishing a consistent format for estimating,
      reporting, and managing capital costs on New Starts projects. The key to
      success is ensuring effective implementation across the country.

    • Second, FTA must carefully evaluate whether each New Starts grantee has
      demonstrated stable and dependable financing sources to construct, maintain,
      and operate a proposed transit system or extension as well as the existing
      transit system. 9 This is important since the New Starts program generally
      provides only a maximum of 50 percent of a project’s funding. In light of tight
      economic conditions at all levels of government, FTA must be vigilant in
      scrutinizing the financial plans of local project sponsors.

FTA must also provide strong oversight to keep major transit projects on schedule
and within budget during construction by exercising sound project and financial
management. In particular, FTA must focus on the Lower Manhattan Recovery
Projects in the coming year. These high priority projects (which are separate from
the New Starts program) constitute a $4.55 billion Federal investment to
reconstruct and enhance New York City’s transportation infrastructure after the
September 11, 2001, terrorist attacks.

The Lower Manhattan Recovery Projects have experienced significant challenges,
including cost estimate increases of as much as $800 million on the Permanent
Port Authority-Trans Hudson Terminal Project. These projects are also being
constructed in a difficult environment with large escalations in material and fuel
costs and contractor shortages. The initial goal was to keep the projects as close to
100 percent Federal funding as possible and within an overall cap, which now
appears unlikely.

Consequently, local grantees will need to provide the remaining funding or reduce
the scope of one or more of the projects, thereby potentially diminishing the
benefits that the projects would provide to travelers in New York City. In the
coming year, FTA must fully exercise its oversight authority and continue to work
with grantees to minimize further estimated cost increases and schedule delays and
address project management problems.


9
    Local financial commitment is a major criterion that FTA uses to determine which New Starts projects are ultimately
    approved for a full funding grant agreement and therefore able to begin construction.
                                                                                 20


Ensuring Continued Vigilance in Protecting Federally Funded Surface
Transportation Projects From Fraud
To their credit, many senior Department leaders have taken seriously their
responsibility to aggressively combat fraud, waste, abuse, and other irregularities.
Specifically, during the past year, the FHWA and FTA Administrators have
demonstrated support for our increased fraud awareness and education outreach
efforts. Despite these efforts, continued vigilance at all levels of the Department
will be needed to ensure that limited transportation funding is protected from
fraud. During FY 2008, our highway- and transit-related contract and grant fraud
investigations yielded 75 indictments, 45 convictions, nearly $500 million in
monetary recoveries, and 28 suspensions or debarments. These investigations
involved schemes such as bid rigging, price fixing, product substitution, bribery
and kickbacks, conflicts of interest, false statements and false claims, labor and
materials overbilling, and disadvantaged business enterprise fraud.

Near-Term Focus Area for the Transition to a New Administration
To help maximize Federal infrastructure investments, we believe the Department
will need to provide vigilant oversight of the $4.55 billion Lower Manhattan
Recovery Projects to minimize further estimated cost increases and schedule
delays.

For further information regarding the issues identified in this chapter, please
contact Joseph Comé, Assistant Inspector General for Highway and Transit
Audits at (202)-366-5630. The following related reports and testimonies can
also be found on the OIG website at http://www.oig.dot.gov.

 • Baseline Report on Major Project Monitoring of the Dulles Corridor Metrorail
   Project
 • Report on the Central Artery/Tunnel Project May 2007 Finance Plan Update
 • Initial Assessment of the Central Artery/Tunnel Project Stem to Stern Safety
   Review
 • Audit of FTA’s Oversight of Pioneer Valley Transit Authority Electric Bus
   Cooperative Agreement
 • Lower Manhattan Reconstruction: Lessons Learned from Large
   Transportation Projects
 • Baseline Report on the Lower Manhattan Recovery Projects
                                                                                                               21


5. Operating the National Airspace System While Developing and
   Transitioning to the Next Generation Air Transportation System
 The Federal Aviation Administration (FAA) will face challenges in balancing the
 needs of the current National Airspace System, which is showing signs of strain,
 with future training, technological, and facility requirements. However, FAA does
 not have a long-term financing mechanism in place, and Congress has established
 stop-gap measures until agreement on funding aviation programs can be reached.
 How FAA is funded is clearly a policy call for Congress. The specific
 management challenges for the Department and FAA in the coming years include:

      • hiring and training 17,000 new controllers through 2017,
      • keeping existing projects on track and reducing risk with the Next Generation
        Air Transportation System (NextGen), and
      • sustaining FAA’s aging facilities.

 Hiring and Training 17,000 New Controllers Through 2017
 Over the next decade, FAA plans to hire and train nearly 17,000 controllers to
 replace those who were hired after the 1981 strike and are now retiring. Ensuring
 there are enough certified controllers at FAA’s more than 300 air traffic control
 facilities will remain a significant watch item for the Department and Congress.

 Since 2005, 3,300 controllers have left the workforce—23 percent more than FAA
 had projected. To keep pace,
                                                 Figure 5-1. Controller Attrition and Hiring,
 FAA accelerated its hiring                      Projected and Actual (FY 2005 – FY 2007)
 efforts and has hired 3,450 new
                                                       Number of Controllers




                                           4,000
                                                             3,300                          3,450
 controllers—25 percent      more          3,500
                                                    2,683                         2,751
                                           3,000
 than projected (see figure 5-1).          2,500
                                                                               2,000

 With the surge in new hires over         1,500
                                          1,000
 the last 4 years, FAA is facing a         500
                                             0
 fundamental transformation in
                                                Projected Actual      Projected Actual
 the composition of its controller               Attrition Attrition    Hiring   Hiring
 workforce. While the overall
 size of the controller workforce remained relatively constant from April 2004 10 to
 June 2008, the number of controllers in training increased by nearly 68 percent
 and the number of fully certified professional controllers (CPC) decreased by
 nearly 12 percent. New controllers now represent 25 percent of the workforce (up
 from 15 percent in 2004). However, that percentage can vary extensively by


 10
      We chose 2004 as a benchmark for comparison purposes since 2004 was the last year we audited this program and
      because 2004 was the year FAA first published its Controller Workforce Plan.
                                                                                  22


location—from as little as zero percent (e.g., Pittsburgh, PA, air traffic control
tower) to as much as 67 percent (e.g., Rochester, MN, air traffic control tower).

A major challenge in addressing controller attrition will be training new
controllers to the CPC level at their assigned locations. In June, we issued our
second report on FAA’s controller facility training program. FAA is taking
actions at the national level to get this important program on track. For example,
FAA is adding more training simulators at towers and increasing use of contractor
training support—from 53 facilities in 2004 to 190 facilities in 2007. Many of
FAA’s efforts, however, are still in the early stages. We identified problems that
we also reported in 2004—that the facility training program continues to be
extremely decentralized and the efficiency and quality of the training varies from
one location to another. FAA has agreed to take the following actions we
recommended to improve this program:

 • Establish realistic standards for how many developmental controllers facilities
   can accommodate.
 • Continue to encourage veteran controllers to transfer to busier, higher-level
   facilities.
 • Implement key initiatives it first proposed in 2004 to improve facility training.
As attrition increases, FAA must also continue addressing controller human factor
issues. Congress has expressed concerns regarding these issues since the influx of
new controllers will need both technical and human factors (fatigue and attention)
training. For example, at the request of Senator Durbin of Illinois, we are
reviewing factors that could affect controller fatigue at the Chicago O’Hare
Tower, Chicago Terminal Radar Approach Control, and Chicago Center.

At the request of Chairman Costello of the House Aviation Subcommittee, we are
reviewing the rate and possible root causes of controller training failures
(developmental controllers who fail training either at the FAA Academy or at their
assigned facility). Our work on these requests is ongoing, and we plan to issue our
final results early next year.

Keeping Existing Projects on Track and Reducing Risks With NextGen
FAA’s capital account is now being shaped by NextGen—an enormously complex
effort that will cost billions of dollars (see figure 5-2 below). FAA budget
estimates show that the Agency will require $18 billion for capital efforts between
fiscal year (FY) 2008 and FY 2013. This includes $5.6 billion specifically for
NextGen initiatives, including demonstration projects and a satellite-based
surveillance system called Automatic Dependent Surveillance-Broadcast
(ADS-B).
                                                                                                        23



                           Figure 5-2. FAA Capital Funding for FY 2008-FY 2013
                                                        (Totals in Millions)
 $4,000.0

                                                                                            $3,558.0
 $3,500.0                                                                        $3,345.6
                                NextGen Funding
                                Remaining F&E     $3,086.0            $3,093.9
 $3,000.0
                                  $2,723.5
                                                                                             $1,494.2
                $2,513.6                                                         $1,227.5
                                                   $986.5             $1,056.2
 $2,500.0
                 $187.7             $631.1



 $2,000.0



 $1,500.0

                $2,325.9
                                   $2,092.4       $2,099.5            $2,037.7   $2,118.1    $2,063.8
 $1,000.0



  $500.0



    $0.0
            FY 2008 (Enacted)      FY 2009        FY 2010             FY 2011    FY 2012    FY 2013
                                                            Fiscal Year



Overall, we are not seeing the significant cost growth and schedule slips that
occurred in the past with FAA’s major modernization projects. This is because
FAA has taken a more incremental approach to major acquisitions and has “re-
baselined” a number of efforts. We recently examined progress with 18 programs
valued at $17.5 billion. When comparing revised baselines, only 2 of the
18 projects we reviewed have experienced additional cost growth ($53 million)
and delays (5 years). However, since inception, six of these programs have
experienced cost growth close to $4.7 billion and delays of up to 12 years.

It will be important to keep existing projects on track because about 30 projects
serve as platforms for NextGen initiatives. For example, core NextGen
capabilities such as data link rely on enhancements to the $2.1 billion En Route
Automation Modernization (ERAM) program, which provides new hardware and
software for facilities that manage high-altitude traffic. Currently, the ERAM
effort is on schedule; its software requirements related to NextGen are uncertain
but are expected to be in the billions of dollars.

A key challenge for the Department and FAA is reducing risk with the
implementation of ADS-B—a centerpiece of the NextGen portfolio. In August
2007, FAA awarded a service-based contract worth $1.8 billion for ADS-B ground
infrastructure. FAA plans to implement “ADS-B Out” in the 2020 timeframe,
which will require aircraft to broadcast their position to ground stations. However,
the majority of capacity- and safety-related benefits are associated with
                                                                                   24


“ADS-B In,” which will display information to pilots in the cockpit. ADS-B
implementation faces several risks, including gaining stakeholder acceptance and
aircraft equipage, addressing broadcast frequency congestion concerns, integrating
with existing systems, and assessing potential security vulnerabilities in managing
air traffic. Much work remains to refine cost, requirements, and expected benefits
of NextGen initiatives. We have identified areas requiring sustained management
attention from FAA and made the following recommendations to help the Agency
reduce risk with NextGen:

 • Conduct a gap analysis between the existing National Airspace System and the
   expected NextGen capabilities to determine funding priorities and the full
   range of adjustments necessary for existing capital programs until the transition
   to NextGen.
 • Develop a mid-point architecture (a technical road map) in the 2015 timeframe
   that provides a way-point between the current system and NextGen.
 • Assess and obtain the necessary skills with respect to contract management and
   systems engineering needed to manage and execute NextGen.
 • Establish metrics for assessing progress with NextGen that focus on enhancing
   capacity, boosting productivity, and reducing operating costs.

Sustaining FAA’s Extensive Network of Aging Facilities
FAA has full or partial responsibility for 420 staffed air traffic control facilities.
Many FAA air traffic control facilities have exceeded their useful lives, and their
physical condition continues to deteriorate. While the average facility has an
expected useful life of approximately 25 to 30 years, 59 percent of FAA facilities
are over 30 years old.

However, FAA still does not have adequate controls in place to ensure that the
Agency’s routine facility maintenance needs are sufficiently funded. Although
FAA has a structured process for estimating its funding requirements for its capital
account (used to fund facility replacements and large improvement projects), the
same process does not exist for the Agency’s operations account (used to fund
recurring facility maintenance). As result, FAA currently has a backlog of over
$240 million in deferred maintenance.

More importantly, FAA’s newly developed processes for its capital maintenance
needs are only short-term solutions that focus on sustaining the existing air traffic
control infrastructure. This is because FAA has not made key decisions regarding
facility consolidations and infrastructure needs—a key aspect of the transition to
NextGen.
                                                                               25


FAA requested $17 million for FY 2009 to examine various alternatives for
revamping its facilities. The re-alignment or consolidation of FAA facilities is a
controversial issue and a key cost driver for NextGen. Therefore, FAA must
ensure that this analysis clearly addresses the technological and security
prerequisites, cost drivers, benefits, and logistical concerns associated with
consolidation so decision makers in Congress and the Administration will know
what can reasonably be accomplished.

Near-Term Focus Areas for the Transition to a New Administration
The Department and FAA are at a crossroads with maintaining and modernizing
the National Airspace System, and FAA must focus on the following efforts:

 • Implementing improvements to controller training programs, including
   establishing realistic standards for how many developmental controllers
   facilities can accommodate and offering incentives to encourage veteran
   controllers to transfer to busier, higher-level facilities.
 • Conducting a gap analysis between the existing National Airspace System and
   the vastly different Next Generation Air Transportation System and developing
   a mid-point architecture that provides a way-point between the current and
   NextGen systems in the 2025 timeframe.

For further information regarding the issues identified in this chapter, please
contact Lou Dixon, Assistant Inspector General for Aviation and Special
Programs, at (202)-366-0500. The following related reports and testimonies can
also be found on the OIG website at http://www.oig.dot.gov.
 • Challenges Facing the Implementation of FAA’s Automatic Dependent
   Surveillance - Broadcast Program
 • Air Traffic Control Modernization: FAA Faces Challenges in Managing
   Ongoing Projects, Sustaining Existing Facilities, and Introducing New
   Capabilities
 • Status of FAA’s Efforts To Develop the Next Generation Air Transportation
   System
 • Review of the Air Traffic Controller Facility Training Program
 • Key Issues Facing the Federal Aviation Administration’s Controller Workforce
 • FAA’s Fiscal Year 2009 Budget Request: Key Issues Facing the Agency
                                                                                      26


6. Protecting Against Increasing Cyber Security Risks and
   Enhancing the Protection of Personally Identifiable Information
 Like most Government agencies, the Department must address increased threats of
 sophisticated and organized attacks on departmental networks and computers. The
 Department must also continue to enhance security for critical national
 infrastructure, such as air traffic control systems. In addition, the Department
 continues to face challenges in protecting personally identifiable information
 entrusted to it. To strengthen the protection of information technology (IT)
 resources in fiscal year (FY) 2009, the Department will need to focus management
 attention on:

      • implementing a robust information security program to protect data and
        operations,
      • enhancing security protection of the air traffic control system as a critical
        national infrastructure, and
      • enhancing the protection of personally identifiable information in its systems.

 Implementing a Robust Information Security Program To Protect the
 Department’s Data and Operations
 Although the Department established an information security program in FY 2001,
 it has failed to incorporate information security into its management culture. The
 Department continues to face significant challenges in FY 2009 as it seeks to
 protect its data and operations while combating increasing cyber threats:

      • Strengthening Chief Information Officer (CIO) Leadership To Establish
        and Oversee Implementation of Security Policies: As required by the
        Federal Information Security Management Act of 2002, 11 the CIO is
        responsible for managing the Department’s information security program,
        including developing, implementing, and enforcing security policies.
        However, this office was assigned the additional responsibility of operating
        and maintaining the consolidated IT infrastructure to support the Operating
        Administrations, which has diverted management attention and resources away
        from its policy responsibilities. For example, the Department no longer has a
        designated senior official responsible for managing the information security
        program because that senior official position has been reassigned to the
        operational area.

        Further, the Department identified 52 topics that require IT security policy, but
        the CIO office has issued final policy on only 11 of these (21 percent). The
        office now has a large backlog of draft security policy related to the remaining

 11
      FISMA, Pub. L. 107-296 (Nov. 25, 2002), codified at 44 USC § 3541.
                                                                                   27


   41 topics. In addition, the CIO office has made little progress in enforcing the
   Operating Administrations’ implementation of standard software configuration
   as required by governmental standards. As a result, the Department is behind
   most Federal agencies in configuring its computers to reduce vulnerabilities.

 • Increasing the Influence of the CIO: Ineffective implementation of CIO
   office policies has been a longstanding problem within the Department. Unlike
   other Federal agencies, the Department’s CIO does not have budget or
   performance evaluation authority over the Operating Administrations.
   Operating Administrations are likely to continue implementing departmental
   security policies ineffectively until management or budgetary consequences are
   clear. The Department needs to develop mechanisms to hold Operating
   Administration management more accountable for consistently implementing
   policy and security guidance.

 • Strengthening Cyber Incident Monitoring and Correction: During
   FY 2008, the Department established a consolidated Cyber Security
   Management Center to monitor network activities in the Department and to
   coordinate incident reporting. The center has established a common
   framework to help detect cyber incidents and disseminate this information for
   coordinated action throughout the Department. This improved the visibility of
   Headquarters networks for security monitoring and better positioned the
   Department to combat increasing cyber security threats. However, the
   Department must provide full coverage of its networks for incident monitoring
   and ensure that incidents are reviewed and corrected in a timely manner. For
   example, as of June 30, 2008, there were 233 unresolved incidents, 77 of
   which (33 percent) had been open for more than 3 months.

Enhancing Security Protection of the Air Traffic Control System as a
Critical National Infrastructure
Due to the important role of commercial aviation in fostering and sustaining the
national economy and ensuring citizens’ safety and mobility, the President
designated air traffic control systems as part of the Nation’s critical infrastructure
in Homeland Security Presidential Directive (HSPD)-7. We have reported that the
Department must protect air traffic control systems with a two-pronged approach
to fulfill HSPD-7 requirements: preventing disruption wherever possible and
minimizing disruptions when they do occur.

Implementing a business continuity plan (BCP) for en route services (which
control high-altitude traffic and disseminate flight plan information to all other air
traffic control facilities) and enhancing security reviews of air traffic control
systems are key steps in this approach. In FY 2007 and FY 2008, the Federal
Aviation Administration (FAA) made progress toward implementing a BCP for en
                                                                                                                       28


route services and expanded security evaluation of air traffic control systems.
However, FAA’s ability to handle long-term service disruptions according to the
mandate of HSPD-7 remains unknown, and the methodology used to identify and
test the security of air traffic control systems needs improvement.

     • Making En Route Business Continuity Capability Fully Functional: FAA
       has designated a recovery site to take over the responsibilities of inoperable en
       route centers and has taken good steps toward preparing it, such as installing
       additional emergency power. FAA plans to have the recovery site ready for
       activation by March 2009. However, unresolved technical challenges, human
       integration issues, and funding uncertainty could delay the recovery site’s
       readiness. In addition, FAA needs to assess the potential impact on air travel
       should it have to activate BCP operations. Mitigating the effects on the
       Nation’s economic interests in the event that critical infrastructure is
       incapacitated is a key requirement of HSPD-7.

     • Improving the Methodology Used To Identify and Test the Security of Air
       Traffic Control Systems: The security of the information systems that air
       traffic controllers rely upon is in doubt because the methodology used to
       identify and test system security control is inadequate. FAA’s approach to
       certifying and accrediting these systems is to test system security controls in a
       laboratory environment and at selected operational sites based on risk. 12
       However, there is no evidence that operational sites posing the greatest risk
       were the ones selected for review. Further, the review was ineffective because
       the review teams did not conduct independent testing; instead, they primarily
       relied on interviews with local system operators to determine whether security
       controls were implemented in operational air traffic control systems. FAA
       needs to enhance its reviews of operational sites and start with those that pose
       the greatest risk.

Enhancing the Protection of Personally Identifiable Information in DOT
Systems
In recent years, the Department has made significant progress in addressing its
statutory responsibility to protect personally identifiable information (PII). It has
designated the CIO as Chief Privacy Officer; issued a privacy benchmark report to
Congress; and established procedures for assessing the need for PII collection, use,
and security. However, our tests of sampled PII systems identified the following
deficiencies in how the Department implements prescribed procedures, placing
these personal data at risk:


12
     FAA relies on more than 100 automated systems to direct and manage air traffic. These systems are deployed for
     use to hundreds of operational sites. For example, the Host Computer System is used to direct high-altitude traffic at
     all 20 en route centers.
                                                                                  29


 • Although the departmental privacy office had evaluation documents for the
   109 systems contained in its PII inventory, it could not provide completed
   evaluations to support that no PII is stored in the Department’s other
   320 systems.
 • The privacy officers were unable to produce evidence that a System of Records
   Notice was issued for 9 of 20 sampled systems. As a result, there was no
   assurance that the public was properly notified of the intended use of the
   collected information.
 • Some systems containing PII did not meet minimum security requirements,
   such as encrypting data during network transmission and using proper
   password controls to authenticate users.
 • The Department has not issued policy to notify those affected by breaches of
   sensitive information, implemented its plan to reduce utilization of Social
   Security numbers, or developed policy to establish rules for handling PII,
   including the consequences of not following those rules.

In our opinion, the reporting structure for the Chief Privacy Officer is contributing
to these deficiencies. Specifically, the Chief Privacy Officer does not report
directly to the CIO but to the Chief Information Security Officer. Experts in the
field note that the placement of privacy officials can greatly affect their roles—
which, they say, require direct access to top management. Departmental
management has agreed to reevaluate the reporting structure in FY 2009.

Near-Term Focus Areas for the Transition to a New Administration
Overall, the Department must strive to implement a mature and effective
information security program and make it an integral part of the way it conducts
business. In the near term, the Department needs to focus on the following issues:

 • Addressing the role and authority of the Department’s CIO to ensure timely
   issuance of information security policy and its enforcement across all
   Operating Administrations.
 • Increasing privacy protection of PII stored on Departmental systems.

For further information regarding the issues identified in this chapter, please
contact Rebecca Leng, Assistant Inspector General for Financial and
Information Technology Audits at (202)-366-1496. The following related
reports can also be found on the OIG website at http://www.oig.dot.gov.
 • DOT Information Security Program
 • DOT Delphi Financial System Controls
 • Review of DOT Privacy Policies and Procedures
 • Audit of Security and Controls Over the National Driver Register
                                                                                                                         30


7. Preventing Catastrophic Failures and Obsolescence in the
   Nation’s Aging Surface Transportation Infrastructure
 Fatal infrastructure failures in 2006 and 2007 have focused attention on
 obsolescence in the Nation’s aging surface transportation infrastructure and the
 need to strengthen oversight. The Department must work with states and localities
 to ensure the safety of our bridges and restore or replace those that present the
 highest risk of catastrophic failure. This task will be challenging because,
 according to the American Association of State Highway and Transportation
 Officials, the average bridge in the United States is 43 years old, and almost one in
 four bridges is either structurally deficient and in need of repair or functionally
 obsolete and too narrow for today’s traffic volumes. 13 To its credit, the
 Department has taken action. For example, the Federal Highway Administration
 (FHWA) has agreed to transition to data-driven, risk-based bridge oversight to
 target those bridges most in need of increased attention. This year, the
 Department must focus management attention on two key challenges:

      • FHWA must strengthen its efforts to ensure safety for bridges and tunnels and
        hold states accountable for Federal funds.
      • The Federal Transit Administration (FTA) must work with state and local
        transit agencies to identify ways to repair, rehabilitate, or replace aging transit
        systems.

 Strengthening Efforts To Ensure Safety for Bridges and Tunnels and Hold
 States Accountable for Federal Funds
 Recent fatal infrastructure failures underscore the significance of bridge and tunnel
 safety as major challenges. In 2006, ceiling panels collapsed in a tunnel in
 Boston’s Central Artery/Tunnel Project, killing a motorist. In 2007, the
 catastrophic failure of the I-35W Bridge in Minneapolis killed 13 people. These
 tragic incidents brought renewed national attention to the safety of our bridges and
 tunnels. Shortly after each of these tragedies, we initiated audits to assess whether
 FHWA is exercising adequate oversight to help ensure public safety. FHWA
 must strengthen its oversight approach so that it proactively identifies safety risks,
 which presents an enormous oversight challenge. Specifically, of the nearly
 600,000 bridges across the country, approximately 72,500 are structurally
 deficient. 14 Further, bridges that are classified as structurally deficient can have
 an array of significant problems (see figure 7-1 below).

 13
      American Association of State Highway and Transportation Officials, “Bridging the Gap: Restoring and Rebuilding
      the Nation’s Bridges,” July 28, 2008.
 14
      The term “structurally deficient” refers to bridges with major deterioration, cracks, or other deficiencies in their
      structural components, including decks, girders, or foundations. In some cases, structurally deficient bridges require
      repair or even closure. However, most bridges classified as structurally deficient can serve traffic safely if they are
      properly inspected; if maximum load ratings are properly calculated; and, when necessary, the proper maximum
      weight limits are posted.
                                                                                                                     31


                 Figure 7-1. How Bridges Become Structurally Deficient
                                                                       Water and deicers
                                                    Standing water                             Speed, surface roughness, and truck
                                                                       corrode steel
                                                    promotes deck                              suspension interact to amplify stress.
                                 Debris inhibits                       reinforcement,
                                                    deterioration.
                                 deck drainage.                        causing spalling.




Bridge superstructure is                                                                              Debris-clogged joint
susceptible to corrosion, water                                                                       prevents movement
damage, metal fatigue, and stress                                                                     necessary to relieve
caused by vibration.                                                                                  superstructure stresses.


                                            Surface corrosion                                         Improper drainage causes
                                                                                                      damage to concrete.


            Decay or                         Water movement can scour
            misalignment                                                                              Crack in substructure
                                             away soil under foundation.                              caused by settling of
            of bearings
                                                                                                      foundation.

       Source: Illustration by Jana Brenning. Copyright Jana Brenning. Reprinted with permission.
       Illustration first appeared in Scientific American, March 1993.


  To strengthen bridge safety oversight, FHWA needs to take action in three key
  areas:

  FHWA must implement a data-driven, risk-based approach to overseeing the
  safety of the Nation’s bridges. A major challenge for FHWA is to make
  sustained progress toward implementing a data-driven, risk-based approach to
  overseeing the Nation’s bridges. Based on our past and ongoing work on bridge
  issues, FHWA must pursue the following efforts in this area:

       • Assess bridge safety risks systematically across the country. FHWA’s
         oversight does not include systematic, data-driven oversight to
         comprehensively address nationwide bridge safety risks. 15 FHWA Division
         Offices in each state conduct annual compliance reviews of bridges, but
         FHWA Headquarters does not routinely analyze results to identify nationwide
         bridge safety risks, prioritize them, and address higher priority risks.



  15
       The National Bridge Inventory, maintained by FHWA, comprises data on bridges on the National Highway System,
       as well as bridges maintained and operated by various state and local entities.
                                                                                                               32


     • Encourage greater use of bridge management systems. FHWA agreed to
       support states’ use of computerized bridge management systems by conducting
       studies and providing technical assistance and training. However, FHWA must
       be more proactive in encouraging states to use these systems and helping those
       states most in need of technical assistance so they can implement effective
       bridge management systems.

FHWA must improve accountability for Federal bridge funds. The Safe,
Accountable, Flexible, Efficient Transportation Equity Act: A Legacy for Users 16
authorized $21.6 billion for the Highway Bridge Program through 2009 to fund
bridge replacement, rehabilitation, and systematic preventive maintenance.
FHWA must ensure that this significant investment in addressing bridge needs is
put to the best possible use by enhancing its ability to track states’ use of these
funds. We have reported that FHWA is unable to determine how much of the
funding provided to states is actually spent on structurally deficient bridges
because its financial management system does not differentiate between spending
on structurally deficient bridges and other bridge-related expenditures. It is
imperative that FHWA better measure how states are spending Federal bridge
funds so it can assess the impact of Federal dollars on bridge conditions and help
Congress consider what changes, if any, it wants to make to the Highway Bridge
Program.

FHWA needs to establish a national tunnel inspection program. While the
National Bridge Inspection Program has existed for decades, FHWA currently
lacks a highway tunnel inspection program. In recent years, serious failures in
construction quality on the troubled Central Artery/Tunnel Project highlighted the
need for FHWA to enhance the safety of the Nation’s tunnels. Accordingly,
FHWA should implement a system to hold states accountable for inspecting and
reporting on tunnel conditions. To its credit, FHWA has taken initial steps to do
this. FHWA officials recently informed us that they plan to issue an advance
notice of proposed rulemaking this fall to seek input on the development of
national tunnel inspection standards. As we reported in our last two top
management challenges reports to the Department, it is critical that FHWA
implement this initiative as soon as possible.

Repairing, Rehabilitating, or Modernizing Aging Transit Systems
The Nation’s largest transit systems are becoming increasingly obsolete as demand
for public transportation is increasing. 17 Many of our transit systems are
concentrated in large urban areas and are very old and in need of substantial

16
     Safe, Accountable, Flexible, Efficient Transportation Equity Act: A Legacy for Users (SAFETEA-LU), Pub. L. No.
     109-59 (2005). This law expires September 30, 2009.
17
     According to the American Public Transportation Association, Americans took almost 88 million more trips on
     public transportation during the first 3 months of 2008 over the same period in 2007.
                                                                                                                     33


upgrades or repairs. 18 FTA must work with state and local transit agencies to
identify ways to repair, rehabilitate, or replace their infrastructure to meet current
demand, keep up with projected ridership, and prevent any catastrophic failures
caused by aging or obsolete infrastructure.

Problems with maintaining the Nation’s major mass transit systems will force
tough decisions during the next surface transportation authorization. These
include deciding the overall level of transit funding in relation to highways and
determining whether to emphasize new transit expansions in growing cities or
focus more resources on supporting the rehabilitation of older, existing transit
systems.

Near-Term Focus Areas for the Transition to a New Administration
Addressing the Nation’s aging surface transportation will require sustained
attention in both the short and long term. While long-term strategies are being
developed, the Department needs to focus on the following areas in the near term:

     • Advance a data-driven, risk-based approach to overseeing state bridge
       programs and measuring the impact of Federal funding on improving the safety
       of the Nation’s bridges.
     • Follow through on plans to establish a national tunnel inspection program.

For further information regarding the issues identified in this chapter, please
contact Joseph Comé, Assistant Inspector General for Highway and Transit
Audits at (202)-366-5630. The following related reports and testimonies can
also be found on the OIG website at http://www.oig.dot.gov.
     • Federal Highway Administration’s Oversight of Structurally Deficient Bridges
     • FHWA Can Do More in the Short Term To Improve Oversight of Structurally
       Deficient Bridges
     • Report on the Central Artery/Tunnel Project May 2007 Finance Plan Update
     • Initial Assessment of the Central Artery/Tunnel Project Stem to Stern Safety
       Review
     • Audit of Oversight of Load Ratings and Postings on Structurally Deficient
       Bridges on the National Highway System
     • DOT’s FY 2008 Top Management Challenges
     • DOT’s FY 2007 Top Management Challenges




18
     Approximately 70 percent of all transit trips in the United States are concentrated in 10 cities: Baltimore; Boston;
     Chicago; Houston; Los Angeles; New York; Philadelphia; San Francisco; Seattle; and Washington, D.C.
                                                                                    34


8. Improving Contract Operations and Maintaining Procurement
   Integrity
The Department spends approximately $6.8 billion annually, or about 40 percent
of its discretionary budget, on contracts to obtain goods and services. Our audits
and investigations continue to find oversight and control weaknesses, fraud and
abuse, and other ethics issues involving Department officials and contractors. The
Department has made progress this year in managing its acquisition workforce by
enhancing an annual ethics training program for acquisition and grants
management personnel. However, to further enhance its acquisition and contract
management oversight, the Department must focus on the following areas:

 • Developing and maintaining a competent acquisition workforce to support the
   Department’s mission.
 • Improving award-fee contracting processes to better achieve acquisition
   objectives.
 • Ensuring that suspended or debarred contractors do not obtain Government
   contracts or assistance agreements.
 • Ensuring the acquisition workforce maintains high ethical standards.

Developing and Maintaining a Competent Acquisition Workforce To
Support the Department’s Mission
The Office of Management and Budget required Federal agencies to develop a
human capital strategic plan for its acquisition workforce. In September 2007, the
Department completed a strategic plan that addressed only part of its acquisition
workforce—contract officers and contract specialists. Although the strategic plan
included a skills assessment of these positions and a general discussion on
retention and hiring strategies, it did not include essential workforce statistics such
as retirement and attrition information, accession planning, and identification of
long- and short-term needs.

Additionally, the Department continues to face challenges in developing a
strategic plan for the rest of its acquisition workforce. Department officials stated
they are having difficulty determining the total number of other key acquisition
workforce positions, such as contracting officer technical representatives and
program managers. This is because the Department lacks key information on
these positions, including workforce size, knowledge and skills, attrition rates, and
retirement rates. Without these critical data, the Department is unable to identify
employment trends and assess the current condition of the workforce to determine
the ideal composition, skill mix, and talent for its future.
                                                                                                                       35


Improving Award-Fee Contracting Processes To Better Achieve Acquisition
Objectives
Award-fee contracts are used to motivate contractors to place emphasis on certain
areas within the contract—such as cost, schedule, and performance. As of
June 30, 2008, the Department had 47 ongoing cost-plus-award-fee contracts with
a potential value of approximately $5.5 billion, including about $271.4 million in
award fees. The Department faces significant challenges in designing and
justifying the use of such contracts and must provide guidance and training to its
acquisition workforce to improve the use of these contracts. As part of our
ongoing, Department-wide audit of cost-plus-award-fee contracts, we issued four
interim reports that addressed problems in designing and justifying these contracts.

To illustrate, the National Airspace System Implementation Support II contract is
valued at approximately $234 million with approximately $18.2 million in award
fees. Yet, the Federal Aviation Administration’s (FAA) performance evaluation
plan 19 did not include clear and measurable award-fee criteria needed to
adequately evaluate contractor performance.

In another example, Volpe awarded a contract for information systems and
information technology support services for approximately $178 million and
established an award-fee pool of approximately $8.9 million. We found that the
descriptions defining adjectival ratings (used to compute the amount of award fee),
such as excellent or satisfactory performance, were vague and inconsistent and did
not clearly define the basis for assigning such a rating. Evaluation criteria that do
not include clearly defined metrics or specific adjectival ratings could result in
inflated contractor performance evaluations and, consequently, inappropriately
approved award fees. In response to these reports, the Department has agreed to
take action to improve these contracts.

We also found that Department procurement offices did not justify the cost
effectiveness of selecting cost-plus-award-fee-type contracts, which may not
always be the appropriate choice. Through an evaluation of the administrative
costs versus the expected benefits, the contracting officer should be able to assess
whether the benefits the Government gains through a cost-plus-award-fee contract
will outweigh the additional costs of overseeing and administering the contract.

For example, in response to our report on the National Airway Systems support
services contract, valued at approximately $316 million, FAA agreed to modify
the contract to a cost-plus-fixed-fee type because the cost and time required to
oversee, monitor, and document the award-fee process outweighed the benefits to
administer the contract.
19
     The performance evaluation plan is the basis for determining the amount of award fee and includes the award-fee
     criteria to be considered under each area evaluated; the percentage of award fee, if any, available for each area; and
     the frequency of evaluation periods.
                                                                                                                 36


Ensuring That Suspended or Debarred Contractors Do Not Obtain
Government Contracts or Assistance Agreements
Federal regulations prohibit firms and individuals without satisfactory records of
integrity and business ethics from receiving contracts and assistance agreements.
The Department revised its policy in June 2005, in part, to improve timely
decision making of suspension and debarment actions. However, our ongoing
audit work shows that the Department needs to improve the policy—and its
implementation—to ensure timelier processing and reporting of suspension and
debarment actions.

For example, Operating Administrations do not consistently take suspension and
debarment actions in a timely manner, even though the new order requires such
actions be taken within 45 days. Twenty-five of the 45 (56 percent) actions we
reviewed were not processed within 45 days. For 19 of these actions, the
Operating Administrations took from 10 days to more than 2 ½ years over the
45-day standard to render final decisions. The remaining six debarment actions
are still awaiting a decision from the debarring officials, which currently takes
from 165 to 945 days.

Federal and Departmental regulations require the Department to enter suspension
and debarment actions into the Excluded Parties Listing System 20 within
5 working days of the decision. We sampled 132 actions and found that the
Department did not adhere to its policy for 63 (48 percent) of those actions—13 of
which took more than 100 days to be entered.

Ensuring the Greater Acquisition Workforce Maintains High Ethical
Standards
Last year, we reported that the Department needed to develop and maintain a
robust ethics program to promote integrity across the myriad of transportation
programs. To its credit, the Department instituted an enhanced annual ethics
training program earlier this year for all acquisition and grants management
personnel across the Department.

This year presents a two-fold ethics challenge for the Department and its
Operating Administrations. First, they must follow through to fully implement
this important annual training requirement. Secondly, the Department and
Operating Administrations need to increase outreach to recipients of Department
funding to ensure that they and their contractors have meaningful ethics programs
and sound internal controls to prevent and detect fraud involving Department
funding.


20
     A web-based system maintained by the General Services Administration contains firms or individuals excluded from
     Federal contracts or other Federal funding such as grants.
                                                                                  37


Overall, our investigations have consistently demonstrated the need for continual
reinforcement of ethical standards—with Department employees and funding
recipients and their contractors—to prevent integrity breaches in the Department’s
extensive contract, grant, and cooperative agreement programs. This is illustrated
in the following examples:

 • Two FAA acquisition officials in a regional office released confidential bid
   information to a foreign-owned firm, enabling the company to win a
   $4.3 million airport construction contract. Both officials pled guilty to felony
   Procurement Integrity Act violations and are no longer employed by FAA.
   The firm was fined $1 million and also paid $750,000 in restitution to a
   company victimized by the scheme.
 • An Ohio Department of Transportation bridge inspector accepted bribes from a
   painting contractor to overlook false certifications regarding the quality and
   quantity of work the company performed on bridge contracts valued at nearly
   $8 million. The inspector resigned from state employment and pled guilty to
   violating the Federal highway projects fraud statute (a felony). The inspector
   was later fined and sentenced to probation.

Near-Term Focus Area for the Transition to a New Administration
Safeguarding Federal contract dollars for transportation is critical in the uncertain
financial environment. At this juncture, the Department needs to complete the
strategic plan for the acquisition workforce to ensure it has the right skill mix to
oversee multimillion-dollar contracts.

For further information regarding the issues identified in this chapter, please
contact Mark Zabarsky, Assistant Inspector General for Acquisition and
Procurement Audits at (202)-366-5225. The following related reports and
testimonies can also be found on the OIG website at http://www.oig.dot.gov.
 • Interim Report on Award-Fee Criteria for the National Airspace System
   Implementation Support II Contract and Bridge Contract
 • Interim Report on Award-Fee Criteria for the National Airway Systems
   Contract
 • Interim Report on Award-Fee Criteria for the Transportation Information
   Project Support Contract
 • Interim Report on Award-Fee Criteria for the System Engineering and
   Technical Assistance II Contract
                                                                                                                                    38


9. Enhancing and Deploying Programs for Reducing the Serious
   Consequences of Surface Transportation Crashes
Surface transportation fatalities and injuries 21 create significant public health and
economic consequences. Motor vehicle traffic crashes cause more than
40,000 deaths and 2 million injuries annually in the United States (see figure 9-1)
and are among the 10 leading causes of deaths in the United States. Total
economic costs, including medical care, property damage, and lost productivity
surpassed $230 billion in 2000—equal to more than 2 percent of the United States
gross domestic product that year. 22

     Figure 9-1. U.S. Highway Fatalities and Injuries, 2001 through 2007

                   44,000
                                                                   43,443                             3.20
                             3.03    43,005   42,884
                   43,000                              42,836




                                                                                                              Injuries (millions)
                                                                               42,708
                                      2.93                                                            3.00
      Fatalities




                            42,196             2.89
                   42,000                                2.79
                                                                     2.70                             2.80

                                                                                 2.58     41,059
                   41,000                                                                             2.60
                                                                                            2.49

                   40,000                                                                             2.40
                             2001     2002     2003   2004   2005                2006        2007
                                                 Calendar Year

     Source: Data from the National Highway Traffic Safety Administration

Department safety improvement programs, such as Federal motor vehicle safety
standards for new cars, have contributed to major improvements in surface safety.
The fatality rate in 2007 reached a historic low of 1.37 deaths per 100 million
vehicle miles traveled, and the injury rate also fell. The preliminary estimate of
injuries in 2007 was, for the first time, below 2.5 million, representing a decline
for the eighth consecutive year and a 3.3-percent decline compared to 2006.
However, the fatality rate will need to drop to 1.0 by 2011 to meet the
Department’s stated goal. For fiscal year 2009, the Department requested nearly
$11 billion for surface safety improvement programs, 16 percent of its total budget
request.

21
     Fatalities and injuries associated with passenger cars and trucks, motorcycles, school buses, commercial vehicles
     (i.e., trucks, trailers, buses, and motor coaches), highway-railroad crossings, and trains.
22
     Latest calculation available, NHTSA, The Economic Impact of Motor Vehicle Crashes, 2000, DOT HS 809 446,
     May 2002.
                                                                                   39


A substantial challenge for the Department is further reducing the number and rate
of surface transportation fatalities. Accomplishing this is especially difficult since
the Department does not directly control some of the most effective tools. States
and localities have jurisdiction for critical safety activities, such as enacting and
enforcing laws for seat belt and helmet usage, alcohol-impaired driving, vehicle
inspection, and speed limits.

To successfully meet this challenge, the Department must establish clear Federal
standards, provide analytical and empirical evidence about safety program
performance, and disseminate information effectively. The Department must also
demonstrate strong leadership by coordinating state and local efforts across the
country and working with private sector partners, such as motor carriers, rail
carriers, and motor vehicle manufacturers. Our recent work demonstrates that the
Department can better meet this challenge by enhancing and deploying the
following proven safety improvements:

 • Promoting consistent state highway safety performance indicators to
   measure progress.
 • Targeting unsafe motor carriers and commercial motor vehicle drivers
   for enforcement.
 • Enhancing the Commercial Driver’s License program by enforcing
   existing standards and adopting new standards.
 • Identifying high-risk highway-rail grade crossings             for   safety
   improvements to further reduce collisions and fatalities.

Promoting Consistent State Highway Safety Performance Indicators To
Measure Progress
The National Highway Traffic Safety Administration (NHTSA) is the lead Federal
agency for establishing motor vehicle safety standards and reducing highway
fatalities and injuries caused by driver and passenger behaviors. Each year,
NHTSA distributes about $600 million in Federal formula and incentive grants for
state and local programs, such as those promoting seat belt usage and reducing
alcohol-impaired driving. In 2007, more than half of all vehicle fatalities were
associated with not using a seatbelt, and about one-third of all crash fatalities were
alcohol-related. NHTSA must balance its safety law promotion and Federal
oversight responsibilities with the need for Federal, state, local, and private sector
partnerships to implement safety programs.

Our audit work has shown that NHTSA can improve its ability to measure the
effectiveness of Federal resources and state strategies by requiring states to use
more meaningful performance indicators linked to proven strategies such as year-
round sustained enforcement of alcohol-impaired driving laws. Performance
                                                                                  40


indicators would also provide states with better tools to judge their progress, allow
NHTSA to compare success among states, and enhance public accountability.

Responding to our audit work, NHTSA and the Governors Highway Safety
Association agreed on a minimum set of 14 performance measures for states to use
for measuring their performance in priority program areas. NHTSA committed to
work with the states to develop uniform definitions, protocols, and reporting
requirements for each measure, especially those measures for which states do not
presently collect data. NHTSA must ensure that states establish measurable goals
and report progress for the measures, beginning with their fiscal year 2010
highway safety plans and annual reports.

Targeting Unsafe Motor Carriers and Commercial Motor Vehicle Drivers for
Enforcement
The Federal Motor Carrier Safety Administration (FMCSA) is the lead agency for
establishing and enforcing motor carrier and commercial motor vehicle driver
safety requirements and standards. An ongoing challenge for FMCSA is to ensure
that motor carriers and drivers operate safely on the Nation’s highways. In 2007,
large truck crashes killed about 4,800 people—a 4-percent reduction compared to
2006—and the fatality rate was 2.12 per 100 million vehicle miles traveled, down
from 4.12 in 1988. 23 However, the most recent rate is almost 50 percent higher
than the overall traffic fatality rate. Like NHTSA, however, FMCSA does not
directly implement some critical safety activities but relies on state, local, and
private sector partners.

FMCSA can reduce the number of large truck crash fatalities by taking stringent
enforcement actions against carriers that repeatedly violate safety regulations. Our
audit work found that hundreds of motor carriers repeatedly violated the safety
regulations without incurring the maximum fines required by statute. Motor
carriers are less likely to improve their safety performances and more likely to
view fines as a cost of doing business if repeat violators are not assessed
maximum fines.

In response to our audit recommendations, FMCSA agreed to enhance its controls
to assess maximum fines for patterns of dangerous violations and began
developing procedures to identify and notify such carriers. FMCSA initially told
us it would revise its policy by May 2007, but it then delayed it to incorporate the
Government Accountability Office’s similar recommendations made in August
2007. FMCSA now plans to issue the revised policy by December 31, 2008.
FMCSA must take action to follow through on this important commitment.



23
     Based on 2006 data, the latest available.
                                                                                  41


However, enforcement actions alone will not ensure compliance with Federal
safety regulations because some individuals avoid sanctions by creating new
motor carrier identities. A recent fatal crash illustrates how a carrier can
circumvent an enforcement action. On June 23, 2008, FMCSA ordered a tour bus
company out of service for several safety violations. On June 26, 2008, a new
company with the same owners and address as the out-of-service company applied
to the Department for operating authority.

On August 8, 2008—before the Department authorized the company to operate—a
bus operating under the new company name crashed in Sherman, Texas, killing
17 passengers and injuring 36 others. FMCSA must improve its processes for
identifying individuals who create new carrier identities after enforcement actions
and prevent these “chameleon carriers” from operating on the Nation’s highways.

Finally, as more foreign-owned commercial vehicles operate in the United States,
FMCSA needs to ensure that Mexico-domiciled carriers, their trucks, and their
drivers comply with all U.S. safety regulations. FMCSA is conducting a highly
scrutinized demonstration project to evaluate the safety performance of Mexico-
domiciled motor carriers that are granted long-haul authority to operate throughout
the United States.

On August 4, 2008, the Department announced a 2-year extension of the
demonstration project. FMCSA must work with U.S. Customs and Border
Protection to implement effective quality controls to check every participating
Mexico-domiciled truck and driver. FMCSA must also ensure that participation
levels in the project are sufficient to provide meaningful results and take effective
enforcement action against participants that violate safety laws and regulations.

Enhancing the Commercial Driver’s License Program by Enforcing Existing
Standards and Adopting New Standards
FMCSA must enhance the Commercial Driver’s License (CDL) program by
rigorously enforcing existing standards in cooperation with state and local law
enforcement agencies and an industry facing record-high fuel prices and
decreasing demand. Enacted in 1986 and required since 1992, the CDL program’s
purpose is to improve highway safety by ensuring that drivers of large trucks and
buses are qualified to operate those vehicles and to remove unsafe and unqualified
drivers from the highways.

Although FMCSA has improved the CDL program, it must continue rigorous
enforcement of existing CDL standards. In the past 5 years, our investigations,
conducted with other law enforcement agencies and FMCSA, led to the
prosecution of CDL fraud schemes in 15 states. These investigations exposed
schemes involving the fraudulent issuance of CDLs to individuals who obtained
them through corrupt means, such as bribery of state examiners and state-
                                                                                  42


sponsored, third-party testers. As of August 2008, these investigations had
generated 137 indictments and 106 convictions.

In addition to enforcing existing standards, FMCSA must strengthen the CDL
program by adopting and implementing new standards. After years of discussion,
FMCSA has proposed new, stronger CDL standards that will reduce the possibility
that unqualified individuals can obtain CDLs. FMCSA will have to work with
states to ensure sustained cooperation in implementing these new standards,
because some changes may need additional state resources.

FMCSA must also work to modernize the Commercial Driver’s License
Information System (CDLIS), which holds records for more than 13 million
drivers. 24 CDLIS is the key system for ensuring that CDL drivers cannot escape a
poor driving record by moving to another state. We recommended improvements
for using the income derived from the system, but FMCSA will need to require
new financial reports and review the results to ensure successful implementation.

Identifying High-Risk Highway-Rail Grade Crossings for Safety
Improvements To Further Reduce Collisions and Fatalities
Over the last 5 years, collisions and fatalities at highway-rail grade crossings
(grade crossings) have declined. From 2003 through 2007, grade crossing
collisions decreased from 3,077 to 2,749 (11 percent) and fatalities decreased from
357 to 338 (5 percent). During this period, the Federal Railroad Administration
(FRA) took several actions to strengthen its Highway-Rail Grade Crossing Safety
Program. For example, FRA worked with several states to develop state-specific
safety action plans with initiatives for reducing collisions and fatalities. FRA also
implemented procedures to improve the completeness of its grade crossing
collision reporting system by conducting periodic reviews of railroads’ grade
crossing collision reports.

FRA can do more to further reduce grade crossing collisions and fatalities by
effectively implementing the safety mandates in the Rail Safety Improvement Act
of 2008, 25 which was signed by the President on October 16, 2008. This law
gives FRA the authority to establish mandatory state and railroad reporting of
national grade crossing inventory data that would better assist the Department in
identifying high-risk dangerous grade crossings and developing risk mitigation
strategies. The law also directs FRA to develop and make available to states
model legislation to address sight obstructions at grade crossings with passive
warning signs to improve motorists’ ability to see approaching trains.



24
     As of February 2008.
25
     H.R. 2095 (2008).
                                                                               43


Near-Term Focus Area for the Transition to a New Administration
The safety of travelers is the Department’s overarching goal and number one
priority. There has been progress, but additional efforts are needed to complete
long-overdue revisions of policies governing repeat violators of the motor carrier
safety regulations and adopt new CDL standards.

For further information regarding the issues identified in this chapter, please
contact Joseph Comé, Assistant Inspector General for Highway and Transit
Audits at (202)-366-5630. The following related reports and testimonies can
also be found on the OIG website at http://www.oig.dot.gov.
 • Best Practices for Improving Oversight of State Highway Safety Programs
 • Effectiveness of Federal Drunk Driving Programs
 • Audit of the National Highway Traffic Safety Administration’s Alcohol-
   Impaired Driving Traffic Safety Program
 • Cross-Border Trucking Demonstration Project
 • Interim Report on NAFTA Cross-Border Trucking Demonstration Project
 • Issues Pertaining to the Proposed NAFTA Cross-Border Trucking
   Demonstration Project
 • Follow-Up Audit of the Implementation of the North American Free Trade
   Agreement’s (NAFTA) Cross-Border Trucking Provisions
 • Motor Carrier Safety: Oversight of High Risk Trucking Companies
 • Status of Safety Requirements for Cross-Border Trucking with Mexico Under
   NAFTA
 • Significant Improvements in Motor Carrier Safety Program Since 1999 Act,
   But Loopholes for Repeat Violators Needs Closing
 • Oversight of the Commercial Driver’s License Program
 • The Federal Railroad Administration Can Improve Highway-Railroad Grade
   Crossing Safety by Ensuring Compliance with Accident Reporting
   Requirements and Addressing Sight Obstructions
                                                                                            44



EXHIBIT. COMPARISON OF FY 2009 AND FY 2008 TOP
MANAGEMENT CHALLENGES
         Items in FY 2009 Report                          Items in FY 2008 Report
• Enhancing Aviation Safety and Maintaining      • Continuing To Make a Safe Aviation
  Confidence in FAA’s Ability To Provide           System Safer
  Effective Oversight of a Rapidly Changing
  Industry
• Enhancing Mobility and Reducing                • Reducing Congestion in America’s
  Congestion in America’s Transportation           Transportation System
  System
                                                 • Reforming Intercity Passenger Rail
• Developing a Plan to Address Projected         • Developing a Plan To Address the Highway
  Highway and Transit Funding Shortfalls           and Transit Funding Issues in the Next
                                                   Reauthorization


• Maximizing the Return on Current Highway       • Continuing To Enhance Oversight To
  and Transit Infrastructure Investments           Ensure the Safety of an Aging Surface
                                                   Transportation Infrastructure and To
                                                   Maximize the Return on Investments in
                                                   Highway and Transit Infrastructure Projects
• Operating the National Airspace System         • Addressing Long- and Short-Term
  While Developing and Transitioning to the        Challenges for Operating, Maintaining, and
  Next Generation Air Transportation System        Modernizing the National Airspace System

• Protecting Against Increasing Cyber Security   • Strengthening the Protection of Information
  Risks and Enhancing the Protection of            Technology Resources, Including the
  Personally Identifiable Information              Critical Air Traffic Control System

• Preventing Catastrophic Failures and           • Continuing To Enhance Oversight to Ensure
  Obsolescence in the Nation’s Aging Surface       the Safety of an Aging Surface
  Transportation Infrastructure                    Transportation Infrastructure and To
                                                   Maximize the Return on Investments in
                                                   Highway and Transit Infrastructure Projects
• Improving Contract Operations and              • Managing Acquisition and Contract
  Maintaining Procurement Integrity                Operations More Effectively To Obtain
                                                   Quality Goods and Services at Reasonable
                                                   Prices

• Enhancing and Deploying Programs for           • Improving Oversight and Strengthening
  Reducing the Serious Consequences of             Enforcement of Surface Safety Programs
  Surface Transportation Crashes




Exhibit. Comparison of FY 2009 and FY 2008 Top Management Challenges
                                                                                                   45



        APPENDIX. DEPARTMENT RESPONSE


         U.S. Department of
                                                              Memorandum
         Transportation
         Office of the Secretary
         of Transportation




Subject: ACTION: Departmental Comments on the OIG Draft                Date: November 6, 2008
         Report – Top Management Challenges, Department of
         Transportation



         Phyllis F. Scheinberg
From:
         Assistant Secretary for Budget and
          Programs/Chief Financial Officer

To:      Calvin L. Scovel III
         Inspector General

        The Office of Inspector General’s Top Management Challenges identifies many of the
        key challenges facing the Nation’s transportation systems. The United States is
        privileged to have a first-class transportation system in terms of both connectivity and
        safety. However, the Department of Transportation (DOT) now faces enormous
        challenges that require new and effective solutions. Many of the challenges facing the
        DOT, such as aging infrastructure, resource availability and funding sustainability, and
        increasing cyber security risks, are not unique to the DOT. We would like to offer
        additional perspectives on the challenges we face in the following areas: 1) safety; 2)
        aviation congestion; 3) market-based, data-driven, performance-oriented solutions; 4)
        reform of surface transportation programs; 5) financial management; 6) cash shortfall
        management; and 7) procurement.

        Progress Achieved Improving Safety

        Safety is the Department’s number one priority and our progress in this area is evidence
        of our sustained focus on using a data-driven, risk-based approach to Federal programs
        and regulations. Highway safety has continued to improve as the fatality rate in 2007, the
        most recent year for which data are available, fell to 1.37 per 100 million vehicle miles
        traveled, which is the lowest rate ever recorded and the largest drop in crash-related
        fatalities in more than 15 years. Preliminary data show promising signs of further
        reductions in 2008. Continued improvements in this area are due to many factors,
        including the increased use of safety belts, more effective child restraint systems,
        increased enforcement of laws targeting alcohol-impaired driving, and continued


        Appendix. Department Response
                                                                                          46


investment in safety oriented highway infrastructure improvements. With further
progress in these areas, along with increased market penetration of crash-avoidance
technologies such as electronic stability control, we can expect further improvement in
the future.

The Department is also focusing its efforts on challenges in particular need of
improvement, such as motorcycle safety, older drivers, and safety on rural roads. For
example, motorcycle fatalities continued their nine-year upward trend, increasing another
five percent in 2006. During 2008, we initiated a new Action Plan to Reduce Motorcycle
Fatalities, which includes a comprehensive range of initiatives such as increasing rider
and law enforcement education, better road designs, and tougher standards for labeling
helmets. DOT also submitted legislation to the Congress that would enable us to better
promote motorcycle helmet use. In addition, the Department recognized the
demographic trend of an increasing number of older drivers and has proactively launched
initiatives to address their special needs. Under the Department’s rural safety initiative,
we are helping States and communities develop ways to eliminate the risks drivers face
on rural roads.

Strong progress also continues with aviation safety. Commercial airlines in the U.S.
carry more than 750 million passengers a year and yet commercial airline crashes are rare
events. The last passenger fatality to result from scheduled operations of a major U.S.
carrier occurred in August 2006. Since then the U.S. air carrier system has moved 1.5
billion people with no on-board fatalities. Even with the accident rate at historic lows,
the Department continued to take aggressive actions to reduce system risks. In 2008, the
Federal Aviation Administration (FAA) published a major rule requiring inerting of
aircraft center fuel tanks to reduce ignition risk from combustible vapors. In response to
violations of airworthiness directives by a major carrier, the Secretary convened an
independent review team (IRT) of safety experts to review the FAA’s approach to
managing risks in civil aviation, including its safety culture and implementation of safety
management. Although the IRT concluded the FAA was unambiguously committed to
its safety mission, the team made major recommendations to improve agency programs
and safety management systems. The IRT’s recommendations are now being
implemented by the FAA.
Reducing the risk of runway incursions is one of the FAA’s top priorities. Each year,
FAA handles a massive number of air traffic operations, including over 61 million
takeoffs and landings last year at airports with air traffic control towers. These
operations took place at more than 500 airports and involved over 600,000 pilots and
14,000 air traffic controllers. There is no single way to reduce runway incursions given
the sheer number of flights, people, and vehicles moving across airport runways and
taxiways. Runway safety is a shared responsibility among pilots, controllers, and vehicle
drivers. An aggressive runway safety program continues to reduce the number of serious
runway incursions, and we are implementing new technologies that should bring about
further improvement, particularly as we begin implementing runway status lights.
Automated warning systems enhance runway safety, but education and situational
awareness are the keys to preventing incursions. As a result of these combined efforts,
the number of serious runway incursions dropped by more than 55 percent from fiscal


Appendix. Department Response
                                                                                          47


year 2001 through fiscal year 2007. The 24 serious incursions in fiscal year 2007 made it
the safest year on record.
Action Initiated to Reduce Aviation Congestion
The Next Generation Air Transportation System (NextGen) is the FAA’s plan to
modernize the National Airspace System (NAS) through 2025. NextGen technologies
will give pilots and air traffic controllers more detailed information and enable more
direct flight routes, all while providing the highest levels of safety. Through NextGen,
the FAA is planning to accommodate air traffic growth by increasing NAS capacity and
efficiency while simultaneously improving safety and reducing environmental impacts.
The FAA is implementing new routes and procedures that leverage emerging aircraft
navigation technologies, including Performance-Based Navigation, which is helping FAA
to achieve its NextGen goals.
Technology is only part of the solution for the FAA. The FAA has also taken extensive
action to ensure that a sufficient number of fully trained and qualified air traffic
controllers are available to accommodate expected retirements and industry growth. The
FAA is on schedule in its plan to hire and train nearly 17,000 air traffic controllers over
the next decade. Most recently, the FAA hired over 1,800 controllers in 2007 and over
2,100 in 2008.

The Department is also working to offer market-based solutions to reduce airport
congestion, increase competition, and ultimately reduce fares to consumers. DOT
recently finalized a rulemaking that would auction a small percentage of slots at New
York’s three most crowded airports. Given, the disproportionate impact that New York
has on the rest of the nation’s airspace, a successful implementation of this proposal will
yield nationwide benefits. In addition, the Department continues to implement a redesign
of New York’s airspace to improve efficiency, as well as completing a range of other
operational improvements in the New York region.

Focus on Market-Based, Data-Driven, Performance-Oriented Solutions

This Administration has changed the transportation financing debate to include market-
based, data-driven, performance-oriented solutions. We have called attention to and
proposed policy and programmatic reforms to address the fundamental mispricing of
highways, airports and the air traffic control system. Central to those reforms is a call to
use market-based pricing mechanisms to allocate existing transportation resources more
efficiently, generate revenues for re-capitalization and capacity expansion, reduce
wasteful spending, and mitigate adverse environmental impacts.

In addition to using market-based pricing mechanisms, utilizing private sector
infrastructure markets more robustly should also play a major role in modernizing
America’s transportation infrastructure – from our roads and bridges, to our subways and
seaports, and to our air traffic control system. Public Private Partnerships are an essential
part of modern transportation financing. These partnerships can reduce project costs,
accelerate project delivery, and allow States and municipalities to greatly leverage



Appendix. Department Response
                                                                                         48


available public resources. Among the Administration’s most important transportation
legacies will be the unprecedented innovation we have sparked in the very way
transportation in America is financed, built, maintained and operated. The challenge we
face moving forward is translating these initial innovations into a coherent national policy
that will deliver fewer traffic bottlenecks in the air and on the ground, better transit
services, a stronger economy, and a cleaner environment.

There is a clear role for the Federal government in helping to gain widespread acceptance
of innovative and effective financing solutions across the country. This Administration
believes that the Federal government should prioritize its investment resources on
nationally significant projects that generate high returns for the taxpayer and focus less
on process micromanagement. In addition, Federal policy should provide incentives to
non-Federal officials exploring different procurement approaches that transfer more risks
to non-governmental entities. Properly crafted public-private agreements can
substantially reduce taxpayer exposure to cost overruns, project delays, deteriorating
infrastructure quality and accountability to system users, among other protections.

The Department has led the way with innovative data-driven, performance-oriented
solutions to congestion on our Nation’s roads. During the last year, DOT launched major
congestion reduction initiatives across all modes of transportation, for the first time
seeking to coordinate discretionary grant awards on a multimodal basis within the context
of a performance-based approach to reducing congestion. Federal grants awarded to
innovative State and local leaders willing to pursue new congestion relief strategies hold
enormous promise to reverse the precipitous decline in surface transportation
performance in our major metropolitan areas.

DOT Proposes A Programmatic and Regulatory Overhaul to Federal Surface
Transportation Spending

The Administration’s proposal to refocus, reform, and renew our fundamental approach
to the Nation’s highways and transit systems will create a more effective and sustainable
way to finance, operate, and maintain highways and transit systems. It also will make our
highways safer and give Americans new confidence that the money they invest in
transportation will actually deliver economic results instead of providing a reward for
special interest constituencies. The proposal seeks to replace 102 stove-piped programs
with eight consolidated, multimodal infrastructure and safety programs. This new
approach to working with our State and local partners would empower those closest to
the transportation issues to identify and address priorities of greatest local and regional
importance. This flexible, mode-neutral approach to transportation problem solving
offers new tools to address urban congestion, redoubles the Department’s emphasis on
safety, and focuses on making the best possible use of taxpayers’ money. In addition, the
proposal seeks to introduce cost-benefit analysis and a performance focus for the first
time into most Federal transportation programs. We offer this visionary approach to
making transportation infrastructure investments with the hope that the next
Administration and the 111th Congress will give serious consideration to these ideas and
approaches for congestion relief to keep America moving.



Appendix. Department Response
                                                                                        49



Financial Management

The Department continues to be a leader in budget, performance and financial
management. DOT’s emphasis on financial management has resulted in a renewed clean
audit opinion this year with no material weaknesses, our seventh clean audit in the last
eight years. The clean audit opinion is the result of countless hours of hard work by our
financial managers. We are proud of the Department’s exemplary efforts in this area to
demonstrate the financial and program results the American people expect and deserve.

Effective Action Taken to Address Anticipated Funding Shortfall

Transportation funding is an area desperately in need of reform. The success of any
programmatic reforms depends on having a coherent, effective and sustainable funding
approach. This was driven home clearly by this past summer’s severe cash shortage in
the Highway Trust Fund (HTF). The Department had been very public with its warnings
for over two years about the potential cash shortage in the HTF. The cash shortage
became a reality at the end of fiscal year 2008 when increases in gasoline prices resulted
in motorists driving fewer miles and consuming less fuel. Less fuel consumed resulted in
lower receipts going into the HTF during the summer months when States are engaged in
a majority of the year’s highway construction program. As the States submitted requests
for reimbursement, the cash balances in the HTF dropped precipitously.

In preparation for a potential shortfall, DOT had prepared a legal, policy, and
programmatic framework for action. As a result, the Department swiftly implemented its
action plan to ensure that States and other involved parties were informed and continued
to receive reimbursement. In response to the crisis, Congress passed legislation, which
the President subsequently signed, providing the HTF with a one-time payment of $8
billion from the General Fund.

While the recent crisis has been resolved for the time being, DOT remains concerned that
we could experience another shortfall in the near future. To ensure that the Department is
able to respond proactively in the event of a reoccurrence, a multimodal working group
was established to create an implementation plan. The working group is: documenting
lessons learned, evaluating cash management strategies, coordinating with OMB and
Treasury to prepare for the next cash shortfall, conducting an in-depth analysis of outlays
and earmarks to better estimate cash flow, and working to establish meaningful indicators
that will help the Department determine when to implement these cash management
procedures.

DOT Launches Strategic Procurement Initiatives

The Department also is working to strengthen its procurement systems. For example, the
Senior Procurement Executive (SPE) initiated a three-pronged approach to make
acquisition more strategic throughout DOT. First, the SPE is clarifying and formalizing
procurement authority throughout DOT to effect the changes necessary to more fully



Appendix. Department Response
                                                                                          50


manage acquisition risk. We are also detailing the approval process for major
acquisitions and strengthening organizational outreach. The SPE led the implementation
of One DOT PRISM, a contract-writing system that will enhance business process
reengineering, standardization and efficiencies throughout DOT. Federal Acquisition
Certifications for contract specialists, contracting officers, technical representatives, and
program/project managers have been implemented throughout DOT. These certifications
will ensure appropriate training for key acquisition workforce members. Annual ethics
training has been instituted for employees involved in procurement and grant
management. Finally, DOT’s Procurement Management Council has been reformed into
the Strategic Acquisition Council, with the goal of making acquisition more strategic
through the Department.

Thank you for the opportunity to provide additional insight on the Department’s Top
Management Challenges. We value the constructive comments of the Office of the
Inspector General to improve the performance of the Department and its many programs.




Appendix. Department Response
                                                                                51



The following pages contain textual versions of the graphs and charts found in this
document. These pages were not in the original document but have been added here to
assist screenreaders.

Figure 1-1: Runway Incursions FY 1999 to FY 2007 – Original Definition

          Fiscal Year         Runway
                             Incursions
        FY 1999                 329
        FY 2000                 405
        FY 2001                 407
        FY 2002                 339
        FY 2003                 323
        FY 2004                 326
        FY 2005                 327
        FY 2006                 330
        FY 2007                 370
       Source FAA

Figure 1-2: Runway Incursions FY 2004 to FY 2008 – New Definition

          Fiscal Year         Runway
                             Incursions
        FY 2004                 730
        FY 2005                 779
        FY 2006                 816
        FY 2007                 891
        FY 2008                1012*
       Source FAA
       *Preliminary Data

Figure 2-1. Calculation of Net Effects at 85 Percent On-Time Performance

Additional Revenues                         $111.4 Million
Add: Cost Savings                             39.3 Million
Less: Net Performance Payments               (14.1) Million
Net Gains                                   $136.6 Million
Source: OIG Analysis
                                                                                        52


Figure 3-1. Highway Trust Fund – Highway Account Balance
(FY 2005 – FY 2008)

                                                                            2008
($ Billions)                                2005       2006      2007     (prelim.)
Opening Balance                             10.8       10.6       9.0        8.1
Add: Revenues                               32.9       33.7      34.3       30.7
Less: Disbursements                         33.1       35.3      35.2       37.7
Trust Fund Balance                          10.6        9.0        8.1        1.1
Add: General Fund Transfers                  n/a        n/a       n/a        8.0
Trust Fund Balance with General
Fund Transfer                                n/a           n/a      n/a      9.1

 Projected Revenues and Disbursement per Presidents Budget
 Projected Revenues                         36.7     35.0    34.6       35.8
 Projected Disbursements                    35.3     36.0    38.2       38.7
Source: FHWA for actual Trust Fund revenues and disbursements and the President’s
        Budget for projected revenues and disbursements.


Figure 5-1. Controller Attrition and Hiring, Projected and Actual
(FY 2005 – FY 2007)

FAA's Attrition vs. Hiring for Air Traffic Controllers (FY 2005 – FY 2007)
Projected Attrition                               2,683
Actual Attrition                                  3,300

Projected Hiring                                   2,751
Actual Hiring                                      3,450


Figure 5-2. FAA Capital Funding For FY 2008 – FY 2013

          FY 2008 FY               FY       FY       FY       FY
          (Enacted) 2009           2010     2011     2012     2013
Remaining $2,325.9 $2,092.4        $2,099.5 $2,037.7 $2,118.1 $2,063.8 $12,737.4
F&E
NextGen      $187.7   $631.1         $986.5 $1,056.2 $1,227.5 $1,494.2             $5,583.2
Funding
Total CIP  $2,513.6 $2,723.5       $3,086.0 $3,093.9 $3,345.6 $3,558.0 $18,320.6
                                                                            53



Figure 9-1. U.S. Highway Fatalities and Injuries, 2001 through 2007

 Year             Fatalities                        Injuries
 2001                          42,196                        3.03 million
 2002                          43,005                        2.93 million
 2003                          42,884                        2.89 million
 2004                          42,836                        2.79 million
 2005                          43,443                        2.70 million
 2006                          42,708                        2.58 million
 2007                          41,059                        2.49 million
Source: Data from the National Highway Traffic Safety Administration
